<html>
<title> - DISCUSSION DRAFT BILL REGARDING INDIAN GAMING AND ITS NEED AND EFFECTS IN NORTHERN CALIFORNIA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
DISCUSSION DRAFT BILL REGARDING INDIAN GAMING AND ITS NEED AND EFFECTS 
                        IN NORTHERN CALIFORNIA

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

            Monday, June 6, 2005, in Sacramento, California

                               __________

                           Serial No. 109-18

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-759                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, June 6, 2005.............................     1

Statement of Members:
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     3
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Brown, Valerie, Supervisor, Sonoma County, Northern 
      California Counties Tribal Matters Consortium..............    25
        Prepared statement of....................................    28
    Hancock Loni, Assemblymember, 14th Assembly District, State 
      of California..............................................    54
        Prepared statement of....................................    56
    Lohse, Leslie, Treasurer, Paskenta Band of Nomlaki Indians...     3
        Prepared statement of....................................     6
    McGowan, Mike, Supervisor, Yolo County, and Chairman, Indian 
      Gaming Working Group, California State Association of 
      Counties...................................................    17
        Prepared statement of....................................    19
    Mejia, Margie, Tribal Chairwoman, Lytton Band of Pomo Indians    48
        Prepared statement of....................................    52
    Mitchum, Wayne R., Chairman, Colusa Indian Community Council.     7
        Prepared statement of....................................     8
    O'Brien, Patrick, General Manager, East Bay Regional Park 
      District...................................................    34
        Prepared statement of....................................    36
    Schmit, Cheryl, Director, Stand Up For California............    38
        Prepared statement of....................................    40


  OVERSIGHT FIELD HEARING ON A DISCUSSION DRAFT BILL REGARDING INDIAN 
        GAMING AND ITS NEED AND EFFECTS IN NORTHERN CALIFORNIA.

                              ----------                              


                          Monday, June 6, 2005

                     U.S. House of Representatives

                         Committee on Resources

                         Sacramento, California

                              ----------                              

    The Committee met, pursuant to call, at 12:00 noon in the 
California State Library, Conference Room, Floor 5, Sacramento, 
California, Hon. Richard W. Pombo [Chairman of the Committee] 
presiding.
    Present: Representatives Pombo, Gohmert, and Costa.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The hearing will come to order. I would like 
to have everyone take a seat, that can. Today, the Committee is 
seeking testimony regarding proposals in the Northern half of 
California to take land into trust for Indian gaming purposes.
    Specifically, we have analyzed the need for the discussion 
draft bill I authored to amend Section 20 of the Indian Gaming 
Regulatory Act in a way that increases local input.
    Section 20 of IGRA prohibits gaming on lands taken into 
trust for a tribe after October 17, 1988. At the same time, 
Section 20 provides several complicated exceptions to this 
prohibition that are meant to balance the needs of the tribes 
who want to build casinos on newly acquired lands and the 
concerns of State and local governments which have been 
exercising jurisdiction over such lands.
    Today, the scope and number of Indian gaming operations are 
orders of magnitude larger than what they were when IGRA passed 
in 1988. Indian gaming is now an $18-billion-plus industry, and 
experts predict there is room for substantial growth.
    California's tribes now generate more gaming revenues than 
tribes in any other state. This is not inherently bad. Let's 
keep in mind that Indian gaming stems from tribal sovereignty, 
and there is nothing wrong with a tribe's desire to protect its 
sovereign right to have gaming and to use it as a tool for 
economic development and tribal services on reservations that 
have suffered acutely from historic poverty, joblessness and 
privation.
    However, when IGRA was enacted in 1988, most everyone 
expected that gaming would occur within the limits of tribes' 
existing reservations. With a large number of recognized tribes 
and tribes seeking to be recognized or restored, the State of 
California has seen a growing list of proposals to build Indian 
gaming facilities in areas where they were not expected.
    In many cases, the surrounding communities feel unable to 
absorb the social and financial impacts associated with 
casinos, which can be ambitious in size and scope, yet IGRA 
provides only for an analysis of the impacts on communities 
with no real involvement by communities or other tribes in the 
process of permitting an off-reservation facility.
    Indian gaming should not be a source of conflict between 
neighbors and communities. Several recent proposals to build 
casinos have generated such strong opposition and alarm in 
Northern California that some tribes are now pitted against 
other communities, including other tribes. Some of today's 
witnesses will elaborate on this unfortunate development.
    This conflict is not a matter of perception; it's real and 
has real consequences. Colleagues of mine in the House who do 
not have much experience in dealing with tribes seem to take a 
great interest in tribal issues only when an Indian casino is 
proposed in their district where a tribe does not reside.
    Off-reservation gaming is not just bad publicity for 
tribes; it's sometimes the only publicity. This can affect how 
Members act on bills affecting Indian tribes. Clearly, Congress 
has a responsibility to examine Section 20 of IGRA so that both 
the tribes and the people of California mutually prosper into 
the future.
    I look forward to hearing more about Indian gaming in 
Northern California from today's witnesses and how the 
discussion draft bill to amend Section 20 of IGRA might improve 
the law that has contributed to the well-being of California's 
tribal members.
    [The prepared statement of Mr. Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    Today the Committee is seeking testimony regarding proposals in the 
northern half of California to take land into trust for Indian gaming 
purposes. Specifically, we will analyze the need for a discussion draft 
bill I authored, to amend Section 20 of the Indian Gaming Regulatory 
Act in a way that increases local input.
    Section 20 of IGRA prohibits gaming on lands taken into trust for a 
tribe after October 17, 1988. At the same time, Section 20 provides 
several complicated exceptions to this prohibition that are meant to 
balance the needs of tribes that want to build casinos on newly 
acquired lands, and the concerns of local and state governments which 
had been exercising jurisdiction over such lands.
    Today, the scope and number of Indian gaming operations are orders 
of magnitude larger than what they were when IGRA passed in 1988. 
Indian gaming is now an $18-billion-plus industry, and experts predict 
there is room for substantial growth. California's tribes now generate 
more gaming revenues than tribes in any other state.
    This is not inherently bad. Let's keep in mind that Indian gaming 
stems from tribal sovereignty, and there's nothing wrong with a tribe's 
desire to protect its sovereign right to have gaming and to use it as a 
tool for economic development and tribal services on reservations that 
have suffered acutely from historic poverty, joblessness and privation.
    However, when IGRA was enacted in 1988, most everyone expected that 
gaming would occur within the limits of tribes' existing reservations. 
With a large number of recognized tribes and tribes seeking to be 
recognized or restored, the State of California has seen a growing list 
of proposals to build Indian gaming facilities in areas where they were 
not expected.
    In many cases, the surrounding communities feel unable to absorb 
the social and financial impacts associated with casinos, which can be 
ambitious in size and scope. Yet IGRA provides only for an analysis of 
impacts on communities with no real involvement by communities or other 
tribes in the process of permitting an off-reservation facility.
    Indian gaming should not be a source of conflict between neighbors 
and communities. Several recent proposals to build casinos have 
generated such strong opposition and alarm in northern California that 
some tribes are now pitted against other communities, including other 
tribes. Some of today's witnesses will elaborate on this unfortunate 
development.
    This conflict is not a matter of perception; it's real, and it has 
real consequences. Colleagues of mine in the House who do not have much 
experience dealing with tribes seem to take a great interest in tribal 
issues only when an Indian casino is proposed in their district where a 
tribe does not reside. Off-reservation gaming is not just bad publicity 
for tribes, it's sometimes the only publicity. And this can affect how 
Members act on all bills affecting Indian tribes.
    Clearly, Congress has a responsibility to examine Section 20 of 
IGRA so that both tribes and the people of California mutually prosper 
into the future.
    I look forward to hearing more about Indian gaming in northern 
California from today's witnesses, and how the discussion draft bill to 
amend Section 20 of IGRA might improve a law that has contributed to 
the well-being of California's tribal members.
                                 ______
                                 
    The Chairman. I want to recognize Mr. Gohmert for any 
opening statement he may have.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. Thank you, Mr. Chairman. It's an honor to be 
here. It's great to see such public interest in any issue even 
when it's divisive, but I'm here to learn, not to speak or 
dictate, so thank you. I am pleased to be here.
    The Chairman. Thank you. I would like to introduce our 
first panel of witnesses. We have Tribal Treasurer Leslie Lohse 
from the Paskenta Band of Nomlaki Indians and Chairman Wayne R. 
Mitchum, Cachil Dehe Band of Winton Indians in Colusa.
    The Chairman. If I could have you stand, as is customary in 
the Resources Committee, we will swear in all of the witnesses.
    [Witnesses sworn.]
    The Chairman. Let the record show they have both answered 
affirmatively.
    Welcome to the Committee hearing. It's nice to see you 
both. Let me take this time to remind all of today's witnesses 
that, under Committee Rules, oral statements are limited to 
five minutes. Your entire written statement will appear in the 
record.
    Ms. Lohse, we will begin with you.

 STATEMENT OF LESLIE LOHSE, TRIBAL TREASURER, PASKENTA BAND OF 
                        NOMLAKI INDIANS

    Ms. Lohse. Mr. Chairman, members of the Committee, welcome 
to California. Thank you for allowing me to appear before you 
today. As you said, my name is Leslie Lohse, I am a member of 
the Paskenta Band of Nomlaki Indians. It is located in nearby 
Tehama County. I am the Treasurer and the spokesperson for our 
tribe. I serve as the Pacific Region Area Vice-President for 
the National Congress of American Indians, the BIA Central 
California Agency Policy Committee Chairperson and Treasurer of 
the California Tribal Business Alliance.
    Today I will present my testimony on behalf of my tribe and 
based upon my own experience.
    Your leadership in addressing the issue of off-reservation 
gaming is a very important and critical step in the right 
direction and we do support this legislation.
    Unfortunately, since the passage of IGRA, many non-Native 
American opportunists have sought ways to cash in, some at the 
expense of the tribes that they profess that they are helping 
and some at the expense of the local community.
    The purpose of the law was to provide a tool that is usable 
to bring tribes out of more than a century of abject poverty, 
fund reliable housing and protect schooling. We have seen that 
impact upon our own tribal lands.
    Some have taken titles to homes for the first time and some 
are now able to send their children to colleges and 
universities to further their capabilities and their 
aspirations. IGRA is explicit in the fact that Indian tribes 
are to be the primary beneficiaries of the gaming revenue and 
its clear intent was to shield the tribes from outside 
influences intent on siphoning those gaming profits away to 
meet their own commercial ends.
    There is a growing national concern that the inappropriate 
tribe-stalking role taken on by these wealthy investors in 
tribal gaming is corrupting the very purpose if not the letter 
of the law. From Connecticut to San Francisco, from Minnesota 
to our own Tehama County, tribal communities are beginning to 
actively resist the spread of off-reservation gaming. Within 
our own tribal community, we are experiencing the threat of 
tribes succumbing to those pressures of outside investors who 
encourage them to grab at land outside their territory for the 
purpose of gaming.
    The Greenville Maidu Indians of Plumas County, California, 
are a case in point. This tribe has a great, rich history in 
Plumas County, but has repeatedly attempted to claim land in 
Tehama County where they have no historic aboriginal territory.
    Nevertheless, encouraged by their investors, the tribes 
have petitioned the Board of Supervisors twice to claim a 
casino along I-5. This claim has been soundly rejected twice by 
a vote of 4 to 1 but that doesn't stop the financial backers. 
They persist in their request, costing the community much-
needed funds to maintain their own community, and hoping to 
wear down the community's resistance.
    The petition rewrites California tribal history to serve 
the interests of the investors in picking a prime real estate 
site. Most importantly to us, it is decided well within our 
ancestral territory. The Greenville Maidu proposal distorts 
history of their own and ours and defies careful and deliberate 
court hearings on tribal lands.
    It is but one more chapter in a rush funded by non-Indian 
gaming investors to simply bend historical truths to serve 
their exploitive interests.
    The Greenville Rancheria issue was settled in the Hardwick 
case which identified their Rancheria as being local within 
Plumas County, more than 90 miles away from their current site. 
But the developer is blithely ignoring court rulings. These are 
the Wilmots of New York, a shopping center developer that has 
found new goals in developing and funding and operating Indian 
casinos.
    Despite the Hardwick ruling and the rejection of the Board 
of Supervisors, the Wilmots have gone ahead and purchased 
property in the County along I-5. Their clear intention is to 
relocate the Greenville Maidus to this new location because, 
like other tribes, their ancestral land or their current land, 
which many likely will have, are not within a good market area.
    Strangely enough, some even claim that their own lands are 
too environmentally sensitive, not caring about what impacts 
they're imposing upon another tribe's ancestral land or 
bringing to a local community. Members of the Committee, should 
just any passing investor locate a casino in your district, in 
your community by simply inducing a tribe to make a falsehood 
and even knowingly false land claim? I can assure you the 
investors' first priority is not the welfare of that tribe or 
the return of that tribe to return to their ancestral land.
    Investors, such as the Wilmots of New York, seem to like to 
buy the land first and throw the tribe at it and see if it 
sticks. Rather than reservation shopping, tribe shopping is the 
more appropriate term I have seen several tribes fall victim to 
such exploitive actions. That's why Federal law must be updated 
to prevent this kind of exploitation and done so without delay. 
The legislation has certainly forced the first step that will 
stop the encroachment we're facing within the Tehama County.
    Greenville Rancheria's 275 acres is located approximately 
three miles east of Greenville, Plumas County, California.
    Mr. Chairman, the Paskenta Band of Nomlaki Indians is not a 
great competition. We only have the best hopes for our sister 
tribes, but it's not to be at the expense of other tribes who 
have stayed home or have not yet been recognized or at the 
expense of local communities. Out-of-state investors should 
never be able and permitted to hijack the process.
    The Greenville Tribe Chairperson, Lorie Jaimes, has 
testified before this Committee and spoke out against your 
efforts to update the reservation law proclaiming, ``It is our 
belief that IGRA does not need to be amended with regard to 
off-reservation gaming because there is no genuine problem or 
crisis in this area. Those who most loudly call for amendments 
do so because they do not understand the process.''
    Mr. Chairman, Members of the Committee, we respectfully 
disagree with the Maidu's position. In our minds there is 
clearly a problem of outside interference and this legislation 
is working toward a fair and just solution. It is authored by 
people who indeed understand the process.
    Thank you for your efforts and this opportunity to testify. 
I ask that my statement be entered into the record and I am 
happy to answer any questions you may have.
    The Chairman. Thank you for your testimony.
    [The prepared statement of Ms. Lohse follows:]

                 Statement of Leslie Lohse, Treasurer, 
             Paskenta Band of Nomlaki Indians of California

    Mr. Chairman, members of the Committee, welcome to California and 
thank you for allowing me to appear before you today.
    My name is Leslie Lohse, a member of, Treasurer and spokesperson 
for the Paskenta Band of Nomlaki Indians of California located in 
nearby Tehama County. I am also the National Congress of American 
Indians (NCAI) Pacific Region Area Vice-President, U.S. Bureau of 
Indian Affairs Central California Agency Policy Committee Chairperson 
and Treasurer of the newly formed California Tribal Business Alliance. 
Today I will present testimony based on my own experiences and on 
behalf of Paskenta.
    The Committee's leadership addressing the issue of off-reservation 
gaming is a tremendous step in the right direction and we support this 
legislation. Unfortunately, since the passage of the Indian Gaming 
Regulatory Act of 1988, many non-Native American opportunists have 
sought ways to cash in--sometimes at the expense of the Tribe and 
sometimes at the expense of the local community.
    The debate over Tribal gaming and their wealthy investors is taking 
place in many communities around the country. Whether in Connecticut, 
the San Francisco Bay Area, or out here in Tehama County, communities 
are entrenched fighting the spread of off-reservation casinos. Within 
our own tribal community, the Paskenta Band also feels the impact when 
tribes led by investors search for land to claim for the purposes of 
gaming.
    The Greenville Maidu Indians of Plumas County, California, after 
failed attempts to go into Oxnard, Ventura County and the Bay area, 
have repeatedly attempted to claim land in Tehama County where they 
have no historic aboriginal territory. The Greenville Tribe has 
approached the Tehama County Board of Supervisors and was rejected 
twice by a 4-1 vote; has now submitted a new proposal. No consideration 
is being given to the fact that the proposed site is well within the 
ancestral territory of the Paskenta Band of Nomlaki Indians.
    The Greenville Maidu proposal presents a disturbing and exploitive 
picture of Tribal Governments throughout this great nation. The 
Greenville Rancheria issue was settled in the Hardwick case. The 
stipulation and judgment in that matter provides that the exterior 
boundaries of the plaintiff tribes' individual reservations 
(rancherias) would be restored to pre-termination status. Therefore, 
the Greenville Rancheria's ``275 acres, is located approximately three 
miles east of Greenville, Plumas County, California.''
    This indicates clearly that the United States and Greenville 
Rancheria recognize that the Greenville Maidu's proper land request 
should be limited to Plumas County, California, not Tehama County, 
California. However, the developer, the Wilmots of New York, have 
purchased property in Tehama County along Interstate 5. Therefore, the 
Wilmots want to relocate the Greenville Maidu to this new location. 
Such relocation will satisfy this out-of-state investor's appetite for 
profit. No consideration is being given to the Maidu's true ancestral 
territory or the land recognition indicated in the Hardwick case. 
Again, the focus is on the needs of the investor, not the Tribe or 
surrounding community.
    Legal Counsel for the Greenville Tribe, Judith Albietz, when asked 
why the Tribe does not have land in Greenville and if a site-search was 
conducted and how this location was chosen emphasized, ``the developer 
approached the Tribe with this project.'' That is taken from the 
Minutes of the Meeting of the Board of Supervisors of the County of 
Tehama, Tuesday, May 18, 2004. In addition, Ms. Albietz went so far as 
to say, ``the developer of the project, the Wilmots, will be a good 
partner with Tehama County...the facility will be run by the Wilmots.'' 
Notice she referred to the New York developer and not the Greenville 
Maidu Indians.
    Members of the Committee, should an investor have the right to 
place a casino in your community, in your congressional districts, by 
convincing Tribes to make a faulty land claim? I can assure you; an 
investor's first priority is not that a Tribe returns to their 
ancestral lands. Over the years, I have witnessed many Tribes fall 
victim to empty promises made by investors--hopes shattered and 
communities overwhelmed. Rather than ``reservation shopping,'' I have 
found ``tribe shopping'' is probably the more appropriate term. It 
seems that investors, such as the Wilmots from New York, purchase land 
and then throw a tribe at it and see if they stick. Federal law must be 
updated through this legislation to prevent these situations such as 
the one we face in Tehama County.
    Mr. Chairman, the Paskenta Band of Nomlaki Indians of California is 
not afraid of competition. We only have the best hopes for our sister 
Tribes who are less fortunate as they seek economic prosperity. But 
that prosperity should not be at the expense of other Tribes or 
communities. Out-of-state investors should not be permitted to hijack 
the process.
    The Greenville Tribe has testified before this committee and spoken 
candidly about its opposition to efforts led by Chairman Pombo and 
others to reform and update off-reservation gaming law. The Greenville 
Maidu Chairwoman, Lorie Jaimes, testified before this committee in 
Washington, D.C. on March 17, 2005, proclaiming that, ``it is our 
belief that IGRA does not need to be amended with regard to off-
reservation gaming because there is no genuine problem or crisis in 
this area...those who most loudly call for amendment do so because they 
do not understand the process.'' Mr. Chairman, members of the 
committee, there is clearly a problem and this legislation is working 
toward a solution--offered by people who understand the process.
    Thank you for the opportunity to testify. I ask that my statement 
be entered into the record and I am happy to answer any questions you 
may have.
                                 ______
                                 
    The Chairman. Chairman Mitchum, please.

           STATEMENT OF WAYNE R. MITCHUM, CHAIRMAN, 
           CACHIL DEHE BAND OF WINTON INDIANS, COLUSA

    Mr. Mitchum. I want to thank you, Congressman Pombo, for 
inviting me today to give testimony on this discussion draft 
amending the Indian Gaming Regulatory Act to restrict off-
reservation gaming.
    The Colusa Indian community, along with most tribes across 
the Nation, is very concerned about any effort to open the 
Indian Gaming Regulatory Act, no matter how noble the purpose. 
To do so even in a controlled environment puts at risk the 
sovereign rights of tribes across the United States.
    The Indian Gaming Regulatory Act, IGRA, established a 
prohibition against gaming on lands acquired in trust after 
October 17, 1988. The procedures required in IGRA have worked 
successfully for 17 years.
    During this time, only three tribes have successfully taken 
land into trust for gaming purposes off-reservation.
    Unfortunately, when a tribe has circumvented the process 
defined in IGRA, it reflects negatively on all tribes. The 
matter is further complicated by developers who purposely seek 
lands in urban areas with the hopes of capitalizing on a 
tribe's ability to acquire off-reservation lands for gaming 
purposes.
    This practice, commonly referred to as ``reservation 
shopping,'' is often promoted and financed by opportunistic 
non-Indian developers who seek percentages of revenue from the 
resulting off-reservation casinos.
    This effort creates a media frenzy of speculation that 
tribes are out of control in seeking lands for gaming purposes. 
This is not the case.
    Attempts by tribes to conduct gaming on lands outside of 
their ancestral territory for the sole purpose of gaming, 
jeopardizes long-standing claims by tribes seeking to restore 
lands unjustly taken by past Federal policies.
    It has also caused significant tensions between tribal 
governments and created a backlash against Indian gaming by 
citizen groups and leaders in the U.S. Congress.
    In exchange for casino deals, tribes seeking off-
reservation lands have been willing to just cede important 
sovereign rights to State and local governments and have 
entered into exorbitant revenue sharing agreements.
    The sovereignty loss and revenue sharing agreements by 
these tribes become new baselines for other tribes when they 
seek to obtain or renew Tribal/State gaming compacts or compact 
amendments, therefore jeopardizing the sovereignty of tribes 
engaged in on-reservation gaming and following the IGRA 
process.
    Along with other tribal leaders, I have serious concern 
about the possible negative impacts of reservation shopping on 
the long-term viability of Tribal government on-reservation 
gaming. However, I do not believe opening IGRA is the best 
answer.
    Tribal government gaming has been the only vehicle that has 
brought successful economic opportunity for my nation. While 
some tribes have limited themselves to gaming, many others have 
used the funds derived from gaming to rebuild their 
infrastructures, to provide dialysis and medical facilities on 
their reservations, to invest in quality child care for their 
members and their employees, to expand into other forms of 
economic opportunity such as manufacturing facilities.
    Tribal government gaming has brought our members out of 
poverty and restored pride in their ancestry and culture. We 
will have a long way to go to bring people to the levels of the 
financial security enjoyed by the rest of the Nation, but we 
are well on our way.
    Unfortunately, there are many citizen groups, as well as 
members of the State and Federal Legislature, who would like to 
see us fail. They oppose the success we have been able to reap 
through tribal government gaming and do not understand the 
restraints that IGRA imposes as to how our gaming revenues must 
be spent.
    Congressman, I have a few more lines, but I know I'm 
running out of time.
    The Chairman. Go ahead.
    Mr. Mitchum. Rather than expose Indian Country to further 
erosion of sovereign rights, which will surely happen if IGRA 
is opened for modification, I urge Congress to work directly 
with the Secretary of the Interior to require an ancestral tie 
to lands in making two-part determinations under Section 
20(b)(1) of the Indian Gaming Regulatory Act for proposed land 
acquisitions.
    The Colusa Indian community further urges Congress to 
require the Secretary of the Interior to consult with other 
tribes whose ancestral lands are sought for acquisition and 
require the concurrence of those tribes before such lands are 
eligible for gaming.
    Last, I encourage Congress not to approve any special 
legislation that would permit gaming on lands outside of the 
tribe's ancestral territory.
    Again, I thank you for this opportunity. I am available to 
answer any questions.
    The Chairman. Thank you.
    [The prepared statement of Mr. Mitchum follows:]

               Statement of Wayne R. Mitchum, Chairman, 
                    Colusa Indian Community Council

    I wish to thank you, Congressman Pombo, for inviting me to give 
testimony on your Draft Discussion Document to amend the Indian Gaming 
Regulatory Act To Restrict Off-Reservation Gaming.
    The Colusa Indian Community, along with most tribes across our 
Nation, is very concerned about any effort to open the Indian Gaming 
Regulatory Act, no matter how noble the purpose. To do so--even in a 
controlled environment--puts at risk the sovereign rights of tribes 
across the United States.
    The Indian Gaming Regulatory Act (IGRA) established a prohibition 
against gaming on lands acquired in trust after October 17, 1988, with 
certain exceptions:
    1.  Where lands are located within or contiguous to a Tribe's 
reservation;
    2.  Within the last recognized reservation of a landless tribe;
    3.  Oklahoma specific provisions;
    4.  Lands taken into trust as part of a settlement of land claims;
    5.  Lands that constitute the initial or restored reservations of 
Tribes acknowledged through the federal acknowledgment process or 
restored to federal recognition; and
    6.  The so-called ``two part determination'' process in which the 
Secretary of the Interior considers the best interests of the tribe and 
its members and the impact on the surrounding community, and the 
Governor of the State in which the gaming activity is to be conducted 
must concur with the Secretary's determination.
    The procedures required in IGRA have worked successfully the last 
17 years. During this time only three tribes have successfully taken 
land into trust for gaming purposes off reservation.
    Unfortunately, when a tribe has circumvented the process defined in 
IGRA, it reflects negatively on all tribes.
    The matter is further complicated by Developers who purposely seek 
lands in urban areas with the hope of capitalizing on a tribe's ability 
to acquire off reservation lands for gaming purposes. This practice, 
commonly referred to as ``reservation shopping'', is often promoted and 
financed by opportunistic non-Indian developers who seek a percentage 
of revenue from the resulting off-reservation casino. Their efforts 
have created a media frenzy of speculation that tribes are out of 
control in seeking lands for gaming purposes. This is not the case.
    Attempts by Tribes to conduct gaming on lands outside of their 
ancestral territory for the sole purpose of gaming jeopardizes 
longstanding claims by Tribes seeking to restore lands unjustly taken 
by past federal policies. It has also caused significant tensions 
between tribal governments and created a backlash against Indian gaming 
by citizen groups and leaders in the United States Congress.
    In exchange for casino deals, Tribes seeking off-reservation lands 
have been willing to cede important sovereign rights to State and local 
governments, and have entered into exorbitant revenue sharing 
agreements.
    The sovereignty loss and revenue sharing agreed to by these Tribes 
becomes the new baseline for other Tribes when they seek to obtain or 
renew tribal-state gaming compacts or compact amendments, thereby 
jeopardizing the sovereignty of Tribes engaged in on-reservation gaming 
and following the IGRA process.
    Along with other tribal leaders, I have serious concerns about the 
possible negative impacts of reservation shopping on the long-term 
viability of tribal government on-reservation gaming. However, I do not 
believe opening IGRA is the best answer.
    Tribal government gaming has been the only vehicle that has brought 
successful economic opportunity for tribal nations. While some tribes 
have limited themselves to gaming, many others have used the funds 
derived from gaming to rebuild their infrastructures, to provide 
dialysis and medical facilities on their reservations, to invest in 
quality child care for their members and their employees, and to expand 
into other forms of economic opportunity such as manufacturing 
facilities.
    Tribal government gaming has brought our members out of poverty and 
restored pride in their ancestry and culture. We still have a long way 
to go to bring our people to the levels of the financial security 
enjoyed by the rest of the Nation, but we are well on our way.
    Unfortunately, there are many citizen groups as well as members of 
the State and Federal Legislature who would like to see us fail. They 
oppose the success we have been able to reap through tribal government 
gaming and do not understand the restraints that IGRA imposes as to how 
our gaming revenue must be spent.
    Rather than expose Indian Country to further erosion of sovereign 
rights--which will surely happen if IGRA is opened for modification--I 
urge Congress to work directly with the Secretary of the Interior to 
require an ancestral tie to land in making two-part determinations 
under Section 20(b)(1) of the Indian Gaming Regulatory Act for proposed 
land acquisitions.
    The Colusa Indian Community further urges Congress to require the 
Secretary of the Interior to consult with other tribes whose ancestral 
lands are sought for acquisition, and require the concurrence of those 
tribes before such lands are eligible for gaming.
    Lastly, I urge Congress not to approve any special legislation that 
would permit gaming on lands outside of a tribe's ancestral territory.
    Again, I thank you for this opportunity to share the views of the 
Colusa Indian Community. I am available to answer any questions.
                                 ______
                                 
    The Chairman. I thank both of you for your testimony.
    I'm going to begin with questions for Ms. Lohse. Just to 
begin with, can you describe the history of your tribe and its 
experience with Indian gaming.
    Ms. Lohse. With regard to Indian gaming in California, we 
were approached by many investors when they first found out 
that we had gained our recognition. They wanted to take it down 
to the Bay Area, all over the place.
    We said, ``No. We know where we're from. We're from Tehama 
County and we came with nothing and we'll leave with nothing 
before we go and put ourselves somewhere else because we 
identify ourselves with where we are.''
    Eventually, investors did come and try to relocate us. They 
would offer us 25 acres, 10 acres, because that's all you need 
to put a casino on. Again, we said, ``No. We're looking toward 
the future and building a future for our tribe.''
    We finally found an investor that would invest in some 
acreage because we saw this gaming as a tool to spin off other 
things, to make ourselves economically sound. Yet even that 
investor wanted to be a Management Group. We said again, ``No. 
We will not have a management group take care of us. We can 
take care of ourselves.''
    We can be the bank and enjoy some of the revenues from 
here, but we will run it because we honestly believe just 
exactly what Reagan had in mind when he passed IGRA, was the 
fact that this would put the future of the tribes in their own 
hands and we would gain opportunities if it works.
    We said, ``No, we're going to make it work.'' So, we turned 
down the management contract and they did do a consultant 
contract. Since then, we bought out the investor within two 
years because we were running it.
    It's not behooving the investor necessarily to work 
themselves out of the contract. They want to stay there for the 
full seven years. But we said, ``No, we want to take control of 
that.''
    Instead, we've been able to do other things economically, 
build hotels, all these kind of things, and we have turned into 
the bank for some of the investors who come and we leased our 
property to them.
    So gaming, it has been a great tool. That's why we said 
before if it's applied properly, IGRA does work. Unfortunately, 
we have had too many lawyer lobbyists that are out there trying 
to lead the tribes around and circumvent the process. That's 
been our experience.
    The Chairman. I understand, and I have had the opportunity 
to talk to you before. I understand from your testimony your 
concerns with other tribes moving in and taking--trying to 
establish a facility on land that you don't believe is 
historically theirs.
    In the draft legislation, one of the concepts that we put 
in dealt with what we have referred to as an ``Economic 
Opportunity Zone, Indian Economic Opportunity Zone.'' How do 
you feel--and I know you're familiar with the legislation--how 
do you feel about that concept of being able to establish areas 
that would be specifically for gaming like that?
    Ms. Lohse. I'm not real clear about how that would work. I 
know that the concept itself sounds good because it would 
centralize and be able to have tribes basically buy into an 
area, but I'm not sure how that works.
    I think some of the questions that came up were, ``OK, if 
this is going to be an Indian Economic Zone, I think if it's a 
fee land type of setting or a more lucrative setting, who has 
control of that land?
    How are--what jurisdiction does that land fall under? What 
are all of the rights that go with having that land? Who does 
that go to? How is that protected and how is it monitored?'' 
Those are probably some of the concerns.
    I think conceptually it's a good idea because then 
communities know where it's going, where the tribe is going and 
they wouldn't have so many fears as when they tribe gets re-
recognized, ``Oh, gosh, here comes another casino.'' Those are 
some of the questions that I have heard and kind of pondered 
myself.
    The Chairman. I think there are two different ones as 
you're aware. One is dealing with land that is already trust 
land that a tribe already has. The other concept was to take 
land that is not currently trust land and that would be taken 
into trust and it would be done under the names of the tribes 
that would be going in there and it would maintain the 
sovereignty just as it was on current reservation land.
    That would be a way of, I think, consolidating some of this 
so that we don't end up with so many different proposals in 
different places. As you testified to, it seems like there are 
so many different proposals for where we go it makes it 
difficult.
    Chairman Mitchum, I wanted to ask you about that concept 
with the Indian Economic Opportunity Zones and get your 
feedback on that and how you feel about that.
    Mr. Mitchum. I think it's basically the same. The concerns 
that I would have, as far as mineral rights, where would that 
go? As far as--I know what we have in Colusa.
    If the tribes were to go to one specific place, what would 
happen with those? When we purchase properties as far as my 
reservation goes, we make absolutely sure that we have all 
those mineral rights and everything.
    I think as far as with having a group designated for a 
spot, that would be my only concern.
    The Chairman. In your testimony, you talk about a concern 
for opening up IGRA and what some of the impacts would be or 
what some of the possible amendments would be.
    I'm not sure if you're aware or not, this year as the House 
Interior Appropriations bill was working its way through the 
House, there was an attempt made to put a moratorium on any new 
Indian gaming at all anywhere in the country.
    We were able to stop that from going forward because of 
this draft legislation, because of my commitment to moving 
forward and under regular order and having a Committee of 
jurisdiction actually take control of this issue. But that 
attempt was made and it is something that is out there. That's 
not opening up IGRA to amendments; that's throwing it out the 
door.
    That is what we're faced with in the House right now and 
the sense is that there is a very real concern and a very real 
effort to move forward and just completely throw it away and 
not just look at it and look at what any possible updates would 
be, or any new amendments would be to it, but basically put a 
moratorium on moving forward with anything on IGRA.
    I think that's a much more real threat to the issues that 
you have raised in your testimony than moving in forward on a 
regular order with legislation like this.
    My time has expired and I recognize Mr. Gohmert for any 
questions he may have and welcome Mr. Costa to the hearing.
    Mr. Gohmert. Thank you. I appreciate the opportunity and 
appreciate your testimony. There's no reason to be nervous. I 
don't wear a robe anymore like I used to, I don't see a bailiff 
with a gun and handcuffs and I can't send anybody here to 
prison. I want to learn.
    Ms. Lohse, you had mentioned the purpose originally was to 
bring Indians, Native Americans, out of abject poverty and I 
appreciate and understand your concern about outside interests 
being the ones that profit and whether or not they are behind 
some of the movements in this area of gaming. I don't know, I'm 
still learning.
    Because you mentioned it, I am curious. On the gaming on 
ancestral lands, you had mentioned buying out previous 
investors. Overall, do you have any information, any raw data 
as to how individuals have benefited? I know as a Judge when I 
was sentencing people, I had the impression that some of our 
Federal programs had basically instead of encouraging people to 
develop their God-given talents and their--you and I know there 
is so much potential in Indians, Native Americans, that is 
often untapped.
    Do you have data that would indicate how individual Indians 
have benefited and not just been enslaved to a method of 
getting cheap money?
    Ms. Lohse. I'm glad you brought that up.
    We put together our housing program. It's not Federal 
dollars but we adhered to the Federal system in the fact of all 
the requirements that you have, the requirements that you have 
to put forward so that we make sure that they have some 
ownership and responsibility.
    Many times they think, ``I'm Indian, I can have this.'' 
That's not true. We have to understand there is a process. We 
are in government and they need to come forward and put forth 
their information and their application process.
    Since we have just initiated this because we have just paid 
off the investor, now we are making more and rather than paying 
him, we were able to put aside $1 million toward our housing 
which assists with down payments, the first home owner's down 
payment of $10,000, but they have to show, you know, go through 
the process.
    They have to get qualified for a loan, so they're not going 
out there because we don't want to put them into a losing 
situation where they cannot sustain their home and have to have 
it repossessed or fail on their mortgage payments.
    That has brought about some accountability on the tribal 
members, not just a program, but that they have to buy in, they 
have a responsibility of meeting those monthly payments, those 
kinds of things. Our children, we now are requiring them--they 
don't get a per capita check while they are going to school.
    Once they get out of school, they have to have a high 
school diploma or a GED or they wait until they are 21 before 
they get this amount of money because we want them to know the 
encouragement is to go to school. Then we make sure that they 
are in school when we help them to go further with their 
education.
    So, it's about accountability. As far as numbers, since 
January, we have six new homeowners since initiating this 
program. For many of the tribal people, they don't think that 
they can do this because they are so used to someone doing it 
for them.
    We put the onus back on them to take responsibility and 
it's actually been very uplifting to see many of them now come 
and say, ``Wow, this is really cool because now I'm no longer 
on welfare.'' We have taken poor people off welfare assistance. 
At first, it was very scary for them because they were saying, 
``Well, gosh, I'm going to responsible.''
    Mr. Gohmert. How are they making a living?
    Ms. Lohse. Now they're getting jobs within the community. 
They work in our casino, on other parts of our hotels, that 
kind of thing. Now they see that they can be a contributor. 
They are no longer thinking, ``I'm just a taker,'' or ``I 
can't.''
    So, yes, the casino has offered jobs, the hotels and other 
economic developments that are in their own community. They now 
have the feeling like, ``Wow, I'm worth something.'' They can 
meet their bills on a timely manner. Now they feel more 
encouraged to go out and find work.
    Mr. Gohmert. The benefits, the financial benefits, from 
gaming goes to the member government or does it go passed down 
to checks to individual members? I just wasn't sure of the 
structure, if they were considered to be the actual investors--
--
    Ms. Lohse. Yes, they are.
    Mr. Gohmert.--and receiving like rolling checks or 
something like that or if it just goes directly to the tribal--
--
    Ms. Lohse. You have to put together a revenue sharing 
allocation plan that gets approved by the Federal Government. 
So much percentage goes toward education, toward housing, 
toward general welfare issues.
    Then, of course, there are some that you may be able to per 
cap out. I know a lot of people per capita means that you--some 
actually cringe at that and I know that there are many that 
say, ``How is that right?''
    Gaming revenue is tax dollars. Those are tax dollars and 
yet President Bush's tax plan was to put money back into the 
consumer's pocket to grow the economy. So any little amount 
that goes back into our individual Member's pocket grows the 
economy because now they are homeowners and----
    Mr. Gohmert. Thank you. My time has expired but I do really 
appreciate your responses.
    The Chairman. Now I would like to recognize a new Member of 
the Committee, Congressman Costa, for any questions he may 
have.
    Mr. Costa. Thank you very much, Mr. Chairman, for holding 
this hearing. I think it's fitting and appropriate given the 
nature of not only gaming in California, Indian gaming, but 
also the impacts that you and I have discussed across the 
country. So, we appreciate your bringing the Committee here for 
that purpose as you work on the legislation that you have 
already discussed.
    I was looking at the Governor's proclamation as it relates 
to his view of what our State policy is toward Indian gaming in 
California. If my memory serves me correct, we have about 107 
recognized sovereign nations here in California, give or plus 
one are two I think, and others that are pending to seek 
sovereign status or recognition and that list is longer, not 
longer, but it's a significant list.
    As I read, there have been 57 tribes that have successfully 
negotiated compacts and another 7 plus the 1.
    I guess my question to the two witnesses here is, the 
Tribal Treasurer Leslie Lohse, is yours one of the ones of the 
seven that have negotiated a compact?
    Ms. Lohse. No.
    Mr. Costa. You haven't?
    Ms. Lohse. We were one of the 57 in the 1999 compact.
    Mr. Costa. So you were previously already included, all 
right.
    Mr. Mitchum. We're in the same situation.
    Mr. Costa. Then you have a sense, it seems to me, based on 
the fact that you have a successful compact that you 
negotiated.
    My question to both of you is very simple: What do you 
believe the State's policy is toward the recognized sovereign 
nations in California that are not part of the 64 that 
currently have negotiated successful compacts?
    Who wants to respond first?
    Ms. Lohse. I'm not sure what you're trying to ask, but----
    Mr. Costa. Ostensibly, if we have 64 successfully signed 
compacts, if you do the math and subtract 107 from 64 or 64 
from--I believe you get the balance that conceivably could have 
compacts in future.
    I would like to understand what your view is in terms of 
the policy for those recognized sovereign nations that today do 
not have compacts.
    Ms. Lohse. Obviously, that's kind of what we're talking 
about here today. IGRA obviously takes precedence over whether 
the land is eligible for gaming.
    Then once that becomes eligible, then obviously the State 
is mandated by certain stipulations adhered to, to negotiate a 
compact with that tribe if they still choose to stay on the 
reservation and game.
    The other side of it is if they go off-reservation, then 
that becomes the Governor's concurrence and the other things 
that are applied to it.
    Mr. Costa. What's your position for those who seek--the 
balance that do not currently have compacts and go off-
reservation.
    Ms. Lohse. Go off reservation? I am not for that because 
the fact is that if they were to--like I said, this was meant 
to be a tool to be used if usable. IGRA and gaming was not to 
be the panacea for all tribes but it was to be used 
responsibly.
    Mr. Costa. I have spent a little time in the Legislature so 
I'm familiar with that.
    Chairman Mitchum, do you care to respond?
    Mr. Mitchum. I can't add too much more other than that what 
Ms. Lohse said. I basically feel the same way. I think if the 
Governor wants to look at tribes, he has to look at them 
individually. There are numerous times that we have had talks 
and invited these folks out to see exactly what we're doing.
    Mr. Costa. Are either of you satisfied with the State's 
policy toward Indian gaming today?
    Ms. Lohse. He just currently came up with the 
proclamation----
    Mr. Costa. No, I know that----
    Ms. Lohse. Up until then, who knew what the policy was so I 
think----
    Mr. Costa. I didn't know. I'm not sure we actually had a 
policy based upon my previous experience over the years.
    Ms. Lohse. I think there has been great concern. You can 
ask anyone in this room. The tribal leaders would like to speak 
with the Governor to help them understand what policy he is 
establishing.
    Mr. Costa. Let me just close with another question. My time 
is almost up. I am a supporter of Indian gaming. I have one 
facility in my district, one nearby and three adjacent. My 
mother wouldn't let me have it any other way. It's one of her 
areas of entertainment.
    But I am concerned. I want every one of the subsequent 
witnesses to understand that I am concerned about what I 
believe is a lack of State policy that has existed on this 
issue for many in areas and what pertains to those tribes that 
are sovereign nations but have not successfully concluded 
compacts.
    Ms. Lohse. We have the same criticisms. That's one of our 
concerns here, that Chairman Pombo's legislation is addressing 
the fact that many maneuvers and deals that are cut off do 
impact all of us here in the State, and once again that states 
firmly that as tribes we don't get to become an LLC, or 
whatever, somewhere else.
    We remain here, so it definitely impacts us what Indian 
policy, whether it's gaming or any other issue, is here in 
California. We would like to sit down with the Governor and 
discuss it.
    Mr. Costa. Thank you very much.
    The Chairman. Mr. Costa has taken particular interest in 
this issue and has discussed with me in the past the desire to 
have the states have a clearer impact and a clearer policy when 
it comes to Indian gaming.
    I think that's one of the concerns that I have and the 
Committee has and one of the reasons why this legislation was 
put out to begin with.
    Chairman Mitchum mentioned a concern about the loss of 
sovereignty under the possibly of amendments. I think that's a 
very real concern and it's something that I think we need to 
address in anything that we move forward on.
    Just as a follow-up to Mr. Costa's questions, do you feel 
that some of the compacts--and I know you're not familiar with 
all of the compacts that are being signed all over the country; 
that's something that the Committee does get involved with--but 
are you concerned about some of the compacts that are being 
signed and the potential for loss of sovereignty under those 
compacts?
    Mr. Mitchum. I think there has been some sovereignty lost 
or--what I'm afraid of is if they become competitors and those 
agreements enforce the rest of these nations to abide by it.
    My parents and my grandparents fought and died for what we 
have today and I am not going to allow that to happen to them 
if I can help it.
    The Chairman. I have one concern when it comes to the 
amount of money and the percentages and how that escalates. 
Every new compact that is signed becomes a benchmark for the 
next one that comes along.
    The purpose of Indian gaming was to build the economy of 
the reservations and to try to eliminate poverty and eliminate 
joblessness. That was the purpose of it and if it's seen as a 
source of revenue for the State or local governments it 
completely changes the purpose.
    I think I have a greater concern for some of the other 
provisions that are being included in some of those compacts 
and what long-term impact that has when it comes to 
sovereignty.
    One of the reasons why we got into this to begin with was 
because of some of the provisions that were being put in. The 
tribe, as Ms. Lohse talks about, ends up with an outside 
investor who is looking for a tribe that will do something and 
become--who have different motivations than the tribe does and 
different things they want to protect than the tribe does.
    Sometimes they are willing to accept things that they 
probably shouldn't for short-term economic gain and it's not 
worth giving up that sovereignty. That's one of the reasons why 
we got into this to begin with.
    Do the Members have any further questions of this panel?
    The Chairman. I am going to dismiss this panel. Thank you 
very much. If there are any further questions of you they will 
be submitted to you in writing and you can answer those in 
writing.
    I will hold the Committee record open long enough to give 
you an opportunity to respond in writing and it will be entered 
into the record. Thank you very much.
    I'm going to call the second panel, Supervisor Mike McGowan 
from Yolo County; Supervisor Valerie Brown from Sonoma County; 
Pat O'Brien from East Bay Regional Parks District; and Cheryl 
Schmit, Director of Stand Up for California.
    [Witnesses sworn.]
    The Chairman. Let the record reflect all answered in the 
affirmative. Welcome to the hearing. As I previously stated, 
your oral testimony is limited to five minutes. Your entire 
written statements will be included in the record.
    The Chairman. Supervisor McGowan, we will begin with you.

             STATEMENT OF MIKE McGOWAN, SUPERVISOR,
            YOLO COUNTY, INDIAN GAMING WORKING GROUP

    Mr. McGowan. Thank you very much. On behalf of the 
California State Association of Counties, I would like to thank 
Chairman Pombo and the other Members of Congress who are good 
enough to stop and hear our testimony as you consider important 
legislation. My name is Mike McGowan, Member of the Yolo County 
Board of Supervisors and Chairman of the CSAC Indian Gaming 
Working Group.
    CSAC is a single, unified voice speaking on behalf of all 
58 California counties. That voice is essential because there 
really are only two kinds of California counties today, those 
which are presently impacted by Indian gaming and those that 
will be in the future.
    We would contend that the issue of off-reservation gaming 
raised in this hearing today has direct and unique bearing on 
counties, potentially more so than any other jurisdiction of 
local government. For this reason, CSAC has been very actively 
involved in Indian gaming issues.
    As you may recall, Supervisor Richard Forster of Amador 
County testified on our behalf at your hearing in April in 
Washington, D.C. We have also submitted written testimony on 
your draft bill at that time. There are a couple of key points 
that I will be making today that I think are important about 
this Indian gaming issue in California.
    First, regardless of the location of an Indian casino, the 
California county will be confronted with significant impacts 
from that casino's operations. Those impacts include increased 
demands on social services, the criminal justice system, law 
enforcement and fire protection, as well as impacts to 
environmental resources such as air and water.
    Counties are mandated by State law here in California to 
meet these impacts whether they are caused as a result of a 
casino within a city's borders, in an urbanized area or in a 
rural area. Counties should therefore be included in all 
decisions related to the construction and operation of tribal 
casinos within their boundaries, including those within their 
cities.
    My second point is that CSAC can be a valuable resource to 
those seeking more information about how to effectively address 
the impacts of Indian gaming on local communities.
    Over the past several years, CSAC has devoted considerable 
staff time and financial resources to analyzing the impacts on 
county services resulting from Indian gaming. Because of this, 
CSAC has gained extensive knowledge that has proven helpful to 
Tribal governments, other local governments and the State 
government as well.
    CSAC has also worked closely with two California Governors 
to improve government-to-government relationships between 
counties and tribes which benefit the State, those tribes and 
county governments and the citizens.
    The benefits to the State and county governments include 
the establishment of judicially enforced negotiated agreements 
for addressing the impacts from Indian casinos. Tribes are 
benefited because they are now viewed as part of the solution 
instead of part of the problem.
    We believe that the current Tribal/State compacts which 
require negotiation between tribes and counties prior to the 
construction or expansion of casinos fills a large gap in the 
Indian Gaming Regulatory Act, one that failed to address local 
impacts of Tribal gaming.
    It's no secret that Tribal gaming has rapidly expanded in 
California in recent years. In fact, a survey last year 
revealed that 35 counties out of the 58 in California have 
active or proposed gaming operations within their borders, and 
of those proposed, more than 30 are for off-reservation casino 
sites, and as this Committee is aware, the pending off-
reservation proposals relate to projects on land far from a 
tribe's ancestral territory.
    If these proposals are approved, the effect would be to 
bring Indian gaming to each and every one of California's 58 
counties, with several counties juggling the effects of more 
than one casino.
    The impacts to counties, just in financial terms, on 
traffic, water resources, wastewater treatment, the 
environment, the criminal justice system and on would be in the 
hundreds of millions of dollars. Without a requirement for 
negotiated and enforceable agreements between counties and 
tribes, counties would not be able to mitigate all of those 
impacts. The result would be a significant reduction in the 
quality of life for all California residents.
    We recognize, the counties recognize, that tribal casinos 
are not simply another profit-seeking development and fully 
respect and support the desire of Tribal governments to 
properly provide for their tribal members.
    In this regard, California counties accept that one purpose 
of IGRA is to provide Tribal governments with economic self-
sufficiency. For that reason, we do not oppose Indian gaming, 
yet it has become increasingly apparent to CSAC that a delicate 
balance is required to ensure that all forms of government, 
whether they are tribal, municipal, county, State or Federal 
and the people that they represent, are treated equitably in 
addressing the impacts of Indian gaming.
    Because we in California have several positive examples of 
counties and tribes working together for the betterment of 
their respective communities, CSAC is very supportive of 
Chairman Pombo's efforts to give local governments, 
particularly counties, an effective voice in addressing the 
increasing practice of reservation shopping.
    Reservation shopping is causing disruption and concern in 
counties throughout California because it is often geared at 
increasing profits to non-Indian promoters with little or no 
consideration given to a tribe's heritage or historic lands or 
to the impacts of a casino on local communities.
    We support the Chairman's draft legislation in its 
prohibition of tribes crossing state lines to build gaming 
facilities in states where those tribes do not have any trust 
land. We also support amendments to IGRA that would expand the 
two-part determination to specifically include counties and 
other local jurisdictions.
    To the degree that some have interpreted CSAC's previously 
submitted testimony regarding the two-part determination as 
support for the elimination of that two-part determination, 
that is not the case at all. To the contrary, CSAC remains 
fully committed to the two-part determination in IGRA but 
believes that it should be modified so that counties and other 
affected local governments must also approve all land 
acquisitions taken in trust by the Federal Government for a 
tribe even when those acquisitions are considered as restored 
lands.
    I would close by thanking the Chairman again for allowing 
us to speak today and for having the insight to begin the 
analysis of IGRA making certain it accomplishes the purposes of 
providing the income and well-being of the tribes but without 
jeopardizing the health, safety and general welfare of all 
members of our community.
    We especially appreciate the Chairman's bill with its 
necessary and appropriate revisions which will allow the 
counties a significant voice in matters that create impacts 
that counties are ultimately called upon by their communities 
to address. This voice is critical if California Counties are 
to protect the health and safety of their citizens.
    Thank you all very much for taking your time and for giving 
us this opportunity to address you today. We look forward to 
working with you in this and other matters to improve this bill 
and move forward with this issue.
    The Chairman. Thank you.
    [The prepared statement of Mr. McGowan follows:]

      Statement of Supervisor Mike McGowan, Yolo County Chairman, 
 Indian Gaming Working Group, California State Association of Counties

    On behalf of the California State Association of Counties (CSAC) I 
would like to thank Chairman Pombo, Ranking Member Rahall, and the 
other distinguished members of the Committee of Resources for giving us 
this opportunity to submit testimony as part of the hearing to consider 
Chairman Pombo's proposed legislation to restrict off-Reservation 
gaming. I am Mike McGowan, a member of the Yolo County Board of 
Supervisors, and Chairman of the CSAC Indian Gaming Working Group.
    CSAC is the single, unified voice speaking on behalf of all 58 
California counties. The issue raised in this hearing has direct and 
unique bearing on counties, more so than any other jurisdiction of 
local government.
    There are two key reasons this issue is of heightened importance 
for California counties. First, counties are legally responsible to 
provide a broad scope of vital services for all members of their 
communities. Second, throughout the State of California and the nation, 
tribal gaming has rapidly expanded, creating a myriad of economic, 
social, environmental, health, safety, and other impacts. The facts 
clearly show that the mitigation and costs of such impacts increasingly 
fall upon county government.
    For the past three years, CSAC has devoted considerable staff time 
and financial resources to the impacts on county services resulting 
from Indian gaming. We believe that California counties and CSAC have 
developed an expertise in this area that may be of benefit to this 
Committee as it considers amendments to the Indian Gaming Regulatory 
Act.

Introduction:
    At the outset, the California State Association of Counties (CSAC) 
reaffirms its absolute respect for the authority granted to federally 
recognized tribes. CSAC also reaffirms its support for the right of 
Indian tribes to self-governance and its recognition of the need for 
tribes to preserve their tribal heritage and to pursue economic self-
reliance.
    However, CSAC maintains that existing laws fail to address the off-
reservation impacts of tribal land development, particularly in those 
instances when local land use and health and safety regulations are not 
being fully observed by tribes in their commercial endeavors. As we all 
know, these reservation commercial endeavors attract large volumes of 
visitors.
    Every Californian, including all tribal members, depend upon county 
government for a broad range of critical services, from public safety 
and transportation, to waste management and disaster relief.
    California counties are responsible for nearly 700 programs, 
including the following:
    <bullet>  sheriff
    <bullet>  public health
    <bullet>  fire protection
    <bullet>  family support
    <bullet>  alcohol & drug abuse rehabilitation
    <bullet>  elections & voter services
    <bullet>  jails
    <bullet>  roads & bridges
    <bullet>  flood control
    <bullet>  welfare
    <bullet>  indigent health
    <bullet>  probation
    <bullet>  child & adult protective services
    Most of these services are provided to residents both outside and 
inside city limits. Unlike the exercise of land use control, such 
programs as public health, welfare, and jail services are provided (and 
often mandated) regardless of whether a recipient resides within a city 
or in the unincorporated area of the county. These vital public 
services are delivered to California residents through their 58 
counties. It is no exaggeration to say that county government is 
essential to the quality of life for over 35 million Californians. No 
other form of local government so directly impacts the daily lives of 
all citizens. In addition, because county government has very little 
authority to independently raise taxes and increase revenues, the 
ability to adequately mitigate reservation commercial endeavors is 
critical, or all county services can be put at risk.
    CSAC fully recognizes the counties' legal responsibility to 
properly provide for and protect the health, safety, and general 
welfare of the members of their communities. California counties' 
efforts in this regard have been significantly impacted by the 
expansion of Indian gaming.
    Certainly compounding this problem is the fact that the expansion 
in gaming has led some tribes and their business partners to engage in 
a practice that is sometimes referred to as ``reservation shopping'' in 
an attempt to acquire land not historically tied to these tribes but 
which has considerable economic potential as a site for an Indian 
casino. CSAC opposes ``reservation shopping'' as counter to the 
purposes of the Indian Gaming Regulatory Act (IGRA). ``Reservation 
shopping'' is an affront to those tribes who have worked responsibly 
with counties and local governments on a government-to-government basis 
in compliance with the spirit and intent of the IGRA as a means of 
achieving economic self-reliance and preserving their tribal heritage.
    CSAC commends Chairman Pombo and the other Members of the House 
Resources Committee for seeking to curb the increasing practice of 
``reservation shopping.'' This written testimony is in support of your 
efforts to craft amendments to the IGRA that preserve the original goal 
of the IGRA while minimizing the impacts of ``reservation shopping'' on 
local communities. CSAC offers its assistance to Chairman Pombo and the 
House Resources Committee in any manner determined necessary by the 
Chairman and the Committee in its ongoing consideration of amendments 
to the IGRA that balance the interests of gaming tribes with local 
communities and governments.

Background:
A. The Advent of Indian Gaming
    Even before the enactment of the IGRA in 1988, California counties 
were experiencing impacts in rural areas from Indian gaming 
establishments. These early establishments were places where Indian 
bingo was the primary commercial enterprise in support of tribal 
economic self-reliance. The impacts on local communities were not 
significant in large part because the facilities where Indian bingo was 
played were modest in size and did not attract large numbers of 
patrons. Following enactment of the IGRA, the impacts to counties from 
Indian gaming establishments increased with the advent of larger gaming 
facilities. Even so, the impacts to local communities from these larger 
gaming facilities were generally manageable except in certain 
instances.
    Over the last five years, the rapid expansion of Indian gaming in 
California has had profound impacts beyond the boundaries of tribal 
lands. Since 1999 and the signing of Compacts with approximately 69 
tribes and the passage of Propositions 5 and 1A (legalizing Indian 
gaming in California), the vast majority of California's counties 
either have a casino, a tribe petitioning for federal recognition, or 
is the target or focus of a proposed casino plan. As the Committee is 
aware, many pending casino proposals relate to projects on land far 
from a tribe's ancestral territory.
    A 2004 CSAC survey reveals that 53 active gaming operations exist 
in 26 of California's 58 counties. Another 33 gaming operations are 
being proposed. As a result, 35 counties out of 58 in California have 
active or proposed gaming. Most important, of those 35 counties 
impacted by Indian gaming, there are 82 tribes in those counties but 
only 20 local agreements for mitigation of the off-reservation impacts 
on services that counties are required to provide.
B. Development of CSAC 2003 Policy
    In 1999, California Governor Gray Davis and approximately 65 tribes 
entered into Tribal-State Compacts, which permitted each of these 
tribes to engage in Class III gaming on their trust lands. The 
economic, social, environmental, health, safety, traffic, criminal 
justice, and other impacts from these casino-style gaming facilities on 
local communities were significant, especially because these gaming 
facilities were located in rural areas. The 1999 Compacts did not give 
counties an effective role in mitigating off-reservation impacts 
resulting from Indian casinos. Consequently, mitigation of these 
impacts could not be achieved without a tribe's willingness to work 
with the local governments on such mitigation. Some tribes and counties 
were able to reach mutually beneficial agreements that helped to 
mitigate these impacts. Many other counties were less successful in 
obtaining the cooperation of tribes operating casino-style gaming 
facilities in their unincorporated areas.
    The off-reservation impacts of current and proposed facilities led 
CSAC, for the first time, to adopt a policy on Indian gaming. In the 
fall of 2002, at its annual meeting, CSAC held a workshop to explore 
how to begin to address these significant impacts. As a result of this 
workshop, CSAC established an Indian Gaming Working Group to gather 
relevant information, be a resource to counties, and make policy 
recommendations to the CSAC Board of Directors on Indian gaming issues.
    CSAC's approach to addressing the off-reservation impacts of Indian 
gaming is simple: to work on a government-to-government basis with 
gaming tribes in a respectful, positive and constructive manner to 
mitigate off-reservation impacts from casinos, while preserving tribal 
governments' right to self-governance and to pursue economic self-
reliance.
    With this approach as a guide, CSAC developed a policy comprised of 
seven principles regarding State-Tribe Compact negotiations for Indian 
gaming, which was adopted by the CSAC Board of Directors on February 6, 
2003. The purpose of this Policy is to promote tribal self-reliance 
while at the same time promoting fairness and equity, and protecting 
the health, safety, environment, and general welfare of all residents 
of the State of California and the United States. A copy of this Policy 
is attached to this written testimony as Attachment A.
C. Implementation of CSAC's 2003 Policy
    Following adoption by CSAC of its 2003 Policy, the Indian Gaming 
Working Group members met on three occasions with a three-member team 
appointed by Governor Davis to renegotiate existing Compacts and to 
negotiate with tribes who were seeking a compact for the first time. As 
a result of these meetings, three new State-Tribe Compacts were 
approved for new gaming tribes. These new Compacts differed from the 
1999 Compacts in that the 2003 Compacts gave a meaningful voice to the 
affected counties and other local governments to assist them in seeking 
tribal cooperation and commitment to addressing the off-reservation 
environmental impacts of the Indian casinos that would be built 
pursuant to those Compacts.

Illustrations of Successful County/Tribal Cooperation
    There are many examples of California counties working 
cooperatively with tribes on a government-to-government basis on all 
issues of common concern to both governments, not just gaming-related 
issues. Yolo County has a history of working with tribes to ensure 
adequate services in areas where casinos are operating. In addition, 
Yolo County has entered into agreements with two tribes to address the 
impacts created by casino projects in the county. In Southern 
California, San Diego County has a history of tribes working with the 
San Diego County Sheriff to ensure adequate law enforcement services in 
areas where casinos are operating. In addition, San Diego County has 
entered into agreements with four tribes to address the road impacts 
created by casino projects. Further, a comprehensive agreement was 
reached with the Santa Ysabel Tribe pursuant to the 2003 Compact with 
the State of California.
    Humboldt County, located on the north coast of the state, and 
tribal governments have agreed similarly on law enforcement-related 
issues. Humboldt County also has reached agreements with tribes on a 
court facility/sub station, a library, road improvements, and on a 
cooperative approach to seeking federal assistance to increase water 
levels in nearby rivers.
    In central California, Madera and Placer Counties have reached more 
comprehensive agreements with the tribes operating casinos in their 
communities, which are similar to those in place in my county. These 
comprehensive agreements provide differing approaches to the mitigation 
of off-reservation impacts of Indian casinos, but each is effective in 
its own way to address the unique concerns of each community.
    After a tribe in Santa Barbara County completed a significant 
expansion of its existing casino, it realized the need to address 
ingress and egress, and flood control issues. Consequently, Santa 
Barbara County and the tribe negotiated an enforceable agreement 
addressing these limited issues in the context of a road widening and 
maintenance agreement. Presently, there is no authority that requires 
the County of Santa Barbara or its local tribe to reach agreements. 
However, both continue to address the impacts caused by the tribe's 
acquisition of trust land and development on a case-by-case basis, 
reaching intergovernmental agreements where possible.
    The agreements in each of the above counties were achieved only 
through positive and constructive discussions between tribal and county 
leaders. It was through these discussions that each government gained a 
better appreciation of the needs and concerns of the other government. 
Not only did these discussions result in enforceable agreements for 
addressing specific impacts, but enhanced respect and a renewed 
partnership also emerged, to the betterment of both governments, and 
tribal and local community members.

Illustrations of Continued Problems Addressing Casino Impacts
    On the other hand, there are examples of Indian casinos and 
supporting facilities where a tribal government did not comply with the 
requirements of the IGRA or the 1999 Compacts. In Mendocino County, a 
tribe built and operated a Class III gaming casino for years without 
the requisite compact between it and the California Governor. In Sonoma 
County, a tribe decimated a beautiful hilltop to build and operate a 
tent casino that the local Fire Marshal determined lacked the necessary 
ingress and egress for fire safety.
    In other California counties, tribes circumvented or ignored 
requirements of the IGRA or the 1999 Compacts prior to construction of 
buildings directly related to Indian gaming. In San Diego County there 
have been impacts to neighboring water wells that appear to be directly 
related to a tribe's construction and use of its water well to irrigate 
a newly constructed golf course adjoining its casino, and several other 
tribal casino projects have never provided mitigation for the 
significant traffic impacts caused by those projects.
    In 2004, the focus of CSAC on seeking mechanisms for working with 
gaming tribes to address off-reservation impacts continued. Governor 
Schwarzenegger and several tribes negotiated amendments to the 1999 
Compacts which lifted limits on the number of slot machines, required 
tribes to make substantial payments to the State, and incorporated most 
of the provisions of CSAC's 2003 Policy. Of utmost importance to 
counties was the requirement in each of these newly amended Compacts 
that each tribe be required to negotiate with the appropriate county 
government to develop local agreements for the mitigation of the 
impacts of casino projects, and that these agreements are judicially 
enforceable. Where a tribe and county cannot reach a mutually 
beneficial binding agreement, ``baseball style'' arbitration will be 
employed to determine the most appropriate method for mitigating the 
impacts.
D. The Advent of ``Reservation Shopping'' in California
    The problems with the 1999 Compacts remain largely unresolved, as 
most existing Compacts were not renegotiated. These Compacts allow 
tribes to develop two casinos and do not restrict casino development to 
areas within a tribe's current trust land or historical ancestral 
territory. For example, in the Fall of 2002 a Lake County band of 
Indians was encouraged by East Coast developers to pursue taking into a 
trust land in Yolo County for use as a site of an Indian casino. The 
chosen site was across the Sacramento River from downtown Sacramento 
and was conveniently located near a freeway exit. The actual promoters 
of this effort were not Native Americans and had no intention of 
involving tribal Band members in the operation and management of the 
casino. In fact, one promoter purportedly bragged that no Indian would 
ever be seen on the premises.
    In rural Amador County, starting in 2002 and continuing to the 
present, a tribe being urged on by another out-of-State promoter is 
seeking to have land near the small town of Plymouth taken into trust 
for a casino. The tribe has no historical ties to the Plymouth 
community. The effort by this tribe and its non-Native American 
promoter has created a divisive atmosphere in the local community. That 
new casino is not the only one being proposed in the County; a second, 
very controversial new casino is being promoted by a New York developer 
for a three-member tribe in a farming and ranching valley not served 
with any water or sewer services, and with access only by narrow County 
roads. The development of these casinos would be an environmental and 
financial disaster for their neighbors and the County, which already 
has one major Indian casino.
    In the past two years in Contra Costa County, there have been 
varying efforts by three tribes to engage in Indian gaming in this 
highly urbanized Bay Area county. The possibility of significant 
economic rewards from operating urban casinos has eclipsed any 
meaningful exploration of whether these tribes have any historical 
connection to the area in which they seek to establish gaming 
facilities.
    In addition, in 2004, California counties faced a new issue 
involving tribes as a result of non-gaming tribal development projects. 
In some counties land developers were seeking partnerships with tribes 
in order to avoid local land use controls and to build projects that 
would not otherwise be allowed under local land use regulation. In 
addition, some tribes were seeking to acquire land outside their 
current trust land or their legally recognized aboriginal territory and 
to have that land placed into federal trust, beyond the reach of a 
county's land use jurisdiction.
CSAC's 2004 Policy Regarding Development of Tribal Lands
    To address these issues, the CSAC Board of Directors adopted a 
Revised Policy Regarding Development on Tribal Lands on November 18, 
2004 (attached as Attachment B). The Revised Policy reaffirms that:
    <bullet>  CSAC supports cooperative and respectful government-to-
government relations that recognize the interdependent role of tribes, 
counties and other local governments to be responsive to the needs and 
concerns of all members of their respective communities.
    With respect to the issues specifically now before the Committee 
the following new Revised Policies apply:
    <bullet>  CSAC supports federal legislation to provide that lands 
are not to be placed in trust and removed from the land use 
jurisdiction of local governments without the consent of the State and 
affected County.
    <bullet>  CSAC opposes the practice commonly referred to as 
``reservation shopping'' where a tribe seeks to place lands in trust 
outside its aboriginal territory over the objection of the affected 
County.

Importance of County Involvement in Developing Mitigation:
    The history and examples provided above illustrate the need for 
counties to be involved in developing appropriate off-reservation 
mitigations related to Indian casino activities. There is not yet a 
definitive study on the impacts of gaming on local communities. 
However, in those counties that are faced with large gaming projects, 
it is clear that the impacts on traffic, water/wastewater, the criminal 
justice system and social services are significant. For non-Indian 
casinos it is estimated that for every dollar a community collects from 
gambling-related taxes, it must spend three dollars to cover new 
expenses, including police, infrastructure, social welfare and 
counseling services. <SUP>1</SUP> As local communities cannot tax 
Indian operations, or the related hotel and other services that would 
ordinarily be a source of local government income, the negative impact 
of such facilities can even be greater. This is one reason that CSAC 
sought amendments to California Tribal-State Compacts to ensure that 
the off-reservation environmental and social impacts of gaming were 
fully mitigated and that gaming tribes paid their fair share for county 
services.
---------------------------------------------------------------------------
    \1\ Cabazon, The Indian Gaming Regulatory Act, and the 
Socioeconomic Consequences of American Indian Governmental Gaming--A 
Ten Year Review by Jonathon Taylor and Joseph Kalt of the Harvard 
Project on American Indian Economic Development (2005) at p. 9 (citing 
Sen. Frank Padavan, Rolling the Dice: Why Casino Gambling is a Bad Bet 
for New York State at ii (1994).
---------------------------------------------------------------------------
    In 2003, CSAC took a ``snapshot'' of local impacts by examining 
information provided by eight of the then twenty-six counties (the only 
counties that had conducted an analysis of local government fiscal 
impacts) where Indian gaming facilities operated. <SUP>2</SUP> The 
total fiscal impact to those eight counties was approximately $200 
million, including roughly $182 million in one-time costs and $17 
million in annual costs. If these figures were extrapolated to the rest 
of the state, the local government fiscal costs could well exceed $600 
million in one-time and on-going costs for road improvements, health 
services, law enforcement, emergency services, infrastructure 
modifications, and social services.
---------------------------------------------------------------------------
    \2\ CSAC Fact Sheet on Indian Gaming in California (11/5/03) 
(attached as Attachment C.)
---------------------------------------------------------------------------
    Even when a particular gaming facility is within a City's 
jurisdictional limits, the impacts on County government and services 
may be profound. Counties are the largest political subdivision of the 
state having corporate authority and are vested by the Legislature with 
the powers necessary to provide for the health and welfare of the 
people within their borders. Counties are responsible for a countywide 
justice system, social welfare, health and other services. The 
California experience has also made clear that particularly large 
casino facilities have impacts beyond the immediate jurisdiction in 
which they operate. Attracting many thousands of car trips per day, 
larger facilities cause traffic impacts throughout a local 
transportation system. Similarly, traffic accidents, crime and other 
problems sometimes associated with gaming are not isolated to a casino 
site but may increase in surrounding communities.
    As often the key political entity and service provider in the area, 
with a larger geographic perspective and land use responsibility, 
county involvement is critical to insure that the needs of the 
community are met and that any legitimate tribal gaming proposal is 
ultimately successful and accepted. Local approval is necessary to help 
insure a collaborative approach with tribes in gaming proposals and to 
support the long-range success of the policies underlying the IGRA.

Comments on Draft Legislation:
    CSAC fully understands that addressing impacts from Indian casinos 
has been a contentious subject in some California communities. In an 
attempt to minimize this contentiousness, CSAC has focused on 
resolutions that show proper respect for all governments with roles in 
Indian gaming. Ultimately, the two most involved governments are tribal 
governments and county governments.
    The overwhelming majority of Indian casinos are in rural areas. 
Accordingly, county governments are those local governments in 
California who find themselves most often in the position of needing to 
address off-reservation impacts from Indian casinos. Current federal 
law does not provide counties an effective role in working with tribes 
to address off-reservation impacts from Indian gaming.
    In California, through the most recent State-Tribe Compacts, 
counties and other local governments have been provided an appropriate 
opportunity to work with gaming tribes to address these off-reservation 
impacts. The result has been improved government-to-government 
relationships between tribes and county governments. Contrary to 
possible fears of tribal leaders, local governments have not acted 
arbitrarily or capriciously in their dealings with tribes. In fact, the 
improved relationships are the result of each government gaining a 
better understanding of the responsibilities and needs of the other. 
Because we in California have several positive examples of counties and 
tribes working together for the betterment of their respective 
communities, CSAC is very supportive of Chairman Pombo's efforts to 
give local governments an effective voice in addressing the increasing 
practice of ``reservation shopping.''

Two-Part Determination
    Chairman Pombo's bill would effectively end the two-part 
determination presently set forth in the IGRA and prohibit tribes from 
crossing state lines to build gaming facilities in states where those 
tribes do not have any trust land. This is a significant first step in 
solving a large portion of off-reservation gaming proposals considered 
problematic by a number of tribal leaders, Members of Congress, and 
State and local government officials. CSAC wholeheartedly endorses this 
approach.

Newly Recognized, Restored, Landless Tribes
    CSAC endorses Chairman Pombo's efforts to clarify how and where 
newly recognized, restored, and landless tribes acquire lands in trust 
for gaming purposes. The Chairman's effort to first ascertain a tribe's 
geographic and historical ties to a particular area of the State makes 
abundant sense. This approach recognizes that when a tribe has 
geographic and historical ties to a community, a precedential effect to 
those ties is warranted. Without those geographic and historical ties, 
a tribe is no different than any other developer in seeking an economic 
opportunity on lands that were not part of its heritage.

Indian Economic Opportunity Zones
    CSAC does not oppose the concept of allowing two Indian Economic 
Opportunity Zones per state. However, based on its experiences with 
Indian gaming issues, CSAC believes that more details are needed. CSAC 
has several recommendations on how to clarify this provision:
    <bullet>  Zones should be limited to a tribe's trust lands, and 
tribes should not be permitted to merge their separate trust lands to 
create a mega-economic opportunity zone.
    <bullet>  The size of the zones should be limited to an area not 
exceeding two square miles in unincorporated areas or one square mile 
in incorporated areas.
    <bullet>  In states where zones are created pursuant to this 
amendment, Indian gaming should not be permitted on land outside of a 
zone or on land not already held in trust by the federal government at 
the time this amendment is adopted, unless the tribe and affected state 
and local jurisdictions agree in writing that any unavoidable 
significant adverse impacts will be fully mitigated by the tribe.
    <bullet>  The location of such zones should take into account the 
impact that the zones could have on existing commercial endeavors.

Primary Geographic, Social and Historical Nexus
    When the phrase ``primary geographic, social and historical nexus'' 
is used in this bill, CSAC recommends that it be based on objective 
facts that are generally acceptable to practicing historians, 
archeologists, and anthropologists. If there is a question by a tribal, 
state or local government as to whether the nexus has been established, 
the bill should provide for a judicial determination in either federal 
or state court on the issue, where the tribe would have the burden of 
showing the requisite nexus by a preponderance of evidence. This would 
provide a credible mechanism for determining a tribe's primary 
geographic, social and historical nexus and allow for judicial review 
of the facts in cases of doubt.

Suggested Revisions and Clarifications
    There are portions of Chairman Pombo's bill that CSAC respectfully 
suggests require clarification or modification to eliminate ambiguity, 
to clarify the intent of the bill, or to avoid misinterpretation. The 
specific suggested revisions are shown in Attachment D. In addition to 
these revisions, CSAC requests that language be added to give certainty 
to the date that the amendment would become applicable so that, for 
example, federal agencies would know whether a tribe's trust 
application filed before the effective date of the amendment, but 
approved after the effective date, would be subject to the amendment's 
requirements.

Conclusion:
    CSAC presents this written testimony to assist the Chairman and 
Committee Members in their efforts to amend the IGRA to address the 
increasing practice of ``reservation shopping.'' In California the 
Chairman's bill, with necessary and appropriate revisions, would allow 
counties a voice in matters that create impacts that the County will 
ultimately be called upon by its constituents to address. This voice is 
critical if California counties are to protect the health and safety of 
their citizens. Otherwise, counties find themselves in a position where 
their ability to effectively address the off-reservation impacts from 
Indian gaming is very limited and dependent on the willingness of a 
tribe to mitigate these impacts.
    In those instances in California where tribal governments and 
counties have met to work together to resolve issues of concern to each 
government, responsible decisions have been made by both governments to 
the benefit of both tribal members and local communities. Enactment of 
this amendment, with some minor revisions, would provide for more 
opportunities for these governments to work together. It would further 
the original goals of the IGRA while helping to minimize abuses of the 
IGRA that have proven to be detrimental to those tribes in full 
compliance with all applicable federal laws.
    NOTE: Attachments to Mr. McGowan's statement have been retained in 
the Committee's official files.
                                 ______
                                 
    The Chairman. Supervisor Brown.

STATEMENT OF VALERIE BROWN, SUPERVISOR, SONOMA COUNTY, NORTHERN 
         CALIFORNIA COUNTIES TRIBAL MATTERS CONSORTIUM

    Ms. Brown. Thank you, Chairman Pombo.
    Thank you for being here, Congressman Gohmert and it's nice 
to see you again, Congressman Costa.
    Mr. Costa. Nice to see you.
    Ms. Brown. On behalf of the Northern California Counties 
Tribal Matters Consortium, I would like to thank you for 
bringing this particular hearing to Northern California because 
that is indeed where there is a profound influence of 
reservation shopping.
    My name is Valerie Brown. I am currently a Member of the 
Sonoma County Board of Supervisors and serve as Sonoma County's 
Representative to the Consortium.
    The Consortium is a collaboration between Napa, Solano and 
Sonoma Counties. It is a new and growing organization founded 
by county governments in the northern part of the San Francisco 
Bay Area, based upon the realization that we must work together 
to share expertise and to respond effectively to the legal and 
policy decisions at the Federal level which often drive tribal 
development.
    Our counties are also similarly situated on the northern 
edge of the lucrative San Francisco Bay area urban gaming 
market and are the target for an increasing number of new 
gaming proposals.
    The Consortium's policies, which I gave you as an 
attachment, are consistent with those of the proposed 
legislation in that they make a deferential distinction for 
development proposals from tribes that have significant 
demonstrated ties to an area. Significant ties mean more than a 
tribe passed through, hunted or had some other tenuous 
connection to an area, but rather exercised a tribal 
jurisdictional presence in a meaningful and direct manner.
    The key distinction for development therefore should be not 
necessarily urban or rural but rather presence or absence of a 
documented relationship of a tribal group to the land on which 
it seeks to develop.
    Due to our shared proximity to the lucrative San Francisco 
urban market, gaming promoters representing and loosely 
affiliated with tribal clients continually approach Consortium 
members. These investor-driven efforts are an affront both to 
locally based tribes and to county governments that have worked 
with local tribes on a government-to-government basis to 
mitigate the impacts of casino development.
    IGRA, as well as California Propositions I(a) and 5, were 
passed with the expectation that gaming would be conducted on 
existing Indian lands. Now the exceptions seem to be the tail 
that is wagging the dog and upsetting the carefully designed 
balance that afforded tribes the monopoly of Class III gaming 
in California.
    In Sonoma, for example, I and other County Representatives 
were recently approached by financial backers of an unnamed 
``mystery'' tribe that wanted to establish a Sonoma County 
casino. It was clear this tribe, the identity of which the 
investors refused to disclose, had not consulted with locally 
based tribes and were interested only in finding a location 
that placed them within reach of the lucrative San Francisco 
market.
    This is but the latest of a series of overtures made to 
Consortium Members and of regional reservation shopping 
efforts, some of which the Committee has already heard 
testimony.
    These investor-driven efforts have little regard for a 
tribe's historic ties to an area or to true concepts of tribal 
sovereignty and jurisdiction except to the extent it allows 
them to open a casino. In fact, it appears that investors shop 
for landless tribes.
    The newest California twist to the reservation shopping 
issue also shows how the current law now serves to pit tribe 
against tribe. The Consortium is now observing tribes with 
established casinos trying to leap-frog over other tribal 
gaming operations to get closer to a population center. For 
example, the Hopland Band of Pomo Indians, a Mendocino County-
based gaming tribe located north of Sonoma County, is trying to 
move south along the highway 101 corridor toward San Francisco, 
passing a Sonoma County tribe's operations that apparently is 
reducing its profits.
    The location the Mendocino tribe has chosen for its new 
casino is within the historic Rancheria boundary of another 
Sonoma County tribe. The Mendocino tribe has applied to the BIA 
and the NIGC to transfer the land to its own tribal trust 
property and to have it designated as ``restored'' so that it 
is eligible for gaming.
    The Mendocino tribe's Trust Transfer Application, which is 
opposed by other Sonoma County tribes, is currently pending 
before the BIA. It has become a question of who files first.
    The draft legislation before the Committee takes several 
important steps toward addressing this type of reservation 
shopping and the Consortium endorses most of proposed language.
    One amendment the Consortium would support is to have 
Section (1)(A), which addresses newly recognized tribes, 
provide for the same type of local government input as required 
under Section (1)(B) for landless or restored tribes.
    It appears that the inequities and need for land and 
economic opportunities of newly recognized tribes is no 
different than the needs of landless tribes and both similarly 
require local input and consultation regarding mitigation.
    The unintended consequence of treating the groups 
differently is to place even additional pressure on the current 
acknowledgment process by providing incentives for gaming 
interests to promote the recognition of new tribes to avoid the 
requirements faced by placing land into trust for landless or 
restored tribes.
    The experience in California, driven in part by the 
restoration of illegally terminated rancherias, is that the 
restored land exception to prohibiting gaming on lands acquired 
after 1988 is being misused.
    This is illustrated in the Hopland tribe's attempt to have 
land found eligible for gaming under the restored land 
provision, despite the fact the tribe already has land in trust 
upon which it operates a casino and the land sought is within 
another tribe's historic jurisdiction.
    Similarly, Alameda and Contra Costa Counties have been 
faced with numerous proposals to have land restored from remote 
tribes for gaming purposes. These efforts are all attempts by 
tribes and their investors to evade the two-part test under 
IGRA that provides for consultation between local communities 
and local tribes and the Secretary to determine whether gaming 
on newly acquired trust lands is detrimental to the surrounding 
community and concurrence by the Governor in that 
determination. We actually would be supportive, as CSAC is, in 
having a third part test and that is local jurisdiction.
    Finally, the Consortium is interested in working further 
with the Committee to refine the Economic Opportunity Zone 
concept. It provides a creative mechanism to facilitate the co-
location of gaming operations to help avoid the leap-frogging 
phenomena that now appears to be developing while also giving 
tribes in remote locations an opportunity to share more fully 
in the economic benefits of gaming.
    It appears, however, that additional provisions should be 
considered that take into account various issues, including the 
potential size of the zone, county approval and a limitation to 
take future land into trust for gaming purposes outside of the 
created zones.
    Again, the Consortium is appreciative of your efforts to 
bring this hearing to Northern California and hear of our 
concerns. We look forward to working with you as you continue 
to make this bill work more amenably.
    The Chairman. Thank you.
    [The prepared statement of Ms. Brown follows:]

                Statement of Supervisor Valerie Brown, 
         Northern California Counties Tribal Matters Consortium

    On behalf of the Northern California Counties Tribal Matters 
Consortium (Consortium), I would like to thank Chairman Pombo, Ranking 
Member Rahall, and the other distinguished members of the Committee on 
Resources for giving us this opportunity to testify. I especially want 
to thank you for making the effort to conduct this field hearing in 
Northern California where the issues surrounding tribal gaming and 
reservation shopping have taken on such profound importance. My name is 
Valerie Brown, I am currently a member of the Sonoma County Board of 
Supervisors and serve as Sonoma County's representative to the 
Consortium.

The Consortium
    The Consortium is a collaboration between Napa, Solano and Sonoma 
counties. It is a new and growing organization founded by county 
governments, in the northern part of the San Francisco Bay Area, based 
upon the realization that we must work together to share expertise and 
to respond effectively to the legal and policy decisions at the federal 
level which often drive tribal development. Our counties are also 
similarly situated on the northern edge of the lucrative San Francisco 
Bay Area urban gaming market and are the target for an increasing 
number of new gaming proposals. The Consortium's Policies (attached as 
Exhibit A) are consistent with those of the proposed legislation, in 
that they make a deferential distinction for development proposals from 
tribes that have significant demonstrated ties to an area. Significant 
ties mean more than a tribe passed through, hunted, or had some other 
tenuous connection to an area but rather exercised a tribal 
jurisdictional presence in a meaningful and direct manner. The key 
distinction for development therefore should be not necessarily urban 
or rural but rather presence or absence of a documented relationship of 
a tribal group to the land on which it seeks to develop. Further, the 
Consortium Policies recognize large-scale gaming (and other 
development) projects have significant local and even regional impacts 
that, to be successfully addressed, require a collaborative effort 
involving both county governments and affected tribes.
    California, more than any other state, has experienced an explosion 
of tribal gaming and land development since the 1988 enactment of the 
Indian Gaming Regulatory Act (``IGRA''). This development accelerated 
in California with the 1999 passage of Proposition 1A, and the 1998 
passage of Proposition 5. The result is 54 operational casinos 
maintained by 53 tribal governments in 34 counties, with at least 25 
additional tribal casinos in the planning stage. The scope of potential 
casino development is also reflected in the over 100 federally 
recognized tribes in California, with over 60 existing compacts, many 
of them providing for two casinos per tribe. As these IGRA casinos have 
proliferated, increased tribal gaming wealth, or its promise, has 
provided capital for still more gaming and non-gaming tribal 
development. All levels of state government now face significant 
challenges raised by tribal development initiatives.
    It is often stated that when IGRA was enacted in 1988, it was 
intended to serve as a delicate balance between the rights of states, 
tribes and the federal government to address tribal gaming. The 
``delicate balance'' is now upset. When IGRA was passed Indian gaming 
was, nationally, a $100 million business. Today Indian gaming 
enterprises account for over $18 billion in revenues with California 
alone responsible for about one-third of that amount. IGRA's original 
premise (and that of Propositions 5 and 1A in California) was that, 
with limited exceptions, gaming would be limited to existing 
reservations. Sadly, that is not how it is today.
    This is especially critical in Northern California where a growing 
number of tribal entities are attempting to acquire land, seek trust 
status, and advance development proposals for casinos and other uses in 
locations based solely upon market appeal. Some tribes are attempting 
to develop land without regard to current reservation location or the 
existence of historic or other significant ties to a chosen location. 
There are many legal permutations of ``reservation shopping,'' and many 
jurisdictions are forced to deal with the complex legal issues it 
raises, often on an emergency basis. It is important to point out that 
the issue of ``reservation shopping'' extends beyond gaming. Developers 
are partnering with tribes to use the shield of sovereignty to embark 
on development projects that would otherwise never be approved due to 
land use inconsistencies or other impacts.
    The Consortium was formed to address these challenges. With respect 
to the issues specifically now before the Committee the following 
Consortium Policies apply:
    <bullet>  The Consortium is opposed to any federal fee-to-trust 
request, for gaming or other development purposes, on behalf of a tribe 
that lacks significant, long-term and documented ties to the area where 
the trust land acquisition or development is proposed.
    <bullet>  The Consortium is committed to working with tribes on a 
government-to-government basis to consider development proposals within 
the Consortium's policy framework.
    <bullet>  The Consortium members are prepared to work with tribes 
to insure that county-tribal agreements will fully mitigate 
environmental impacts of a proposed project and that there will be 
guarantees of substantial compliance with county ordinances, zoning and 
environmental policies through an enforceable Memorandum of 
Understanding or similar agreement.
    These policies recognize counties have an obligation to work on a 
government-to-government basis with tribes which have a significant 
historic connection to a community. Implicit in the policies, as in the 
proposed bill, is the recognition that the long-term success of Indian 
gaming depends upon a partnership with local communities to address 
off-reservation impacts and work together to accomplish common goals.

The Consortium Experience
    Our participating counties are all members of the California State 
Association of Counties (CSAC) and we support and endorse the testimony 
submitted to this Committee by CSAC. The Consortium submits its own 
testimony, however, to share the unique experience of tribal gaming in 
the Northern San Francisco Bay Area. This experience underscores the 
importance of Chairman Pombo's legislative proposal to address the 
``reservation shopping'' issue in a manner which places significant 
importance on a tribe's historic ties to a community. Like the 
legislation, our approach also is deferential to tribal sovereignty and 
economic development but acknowledges that the impacts of these 
projects are borne by the off-reservation community and, in particular, 
by county government regardless of whether the proposed project is 
located in a city or county. The need to form the Consortium, itself, 
illustrates the breakdown of the balances struck in the enactment of 
the Indian Gaming Regulatory Act when tribes are allowed to move far 
from their ancestral territory in search of greater gaming market share 
and profit.
    Of the Consortium member counties, only Sonoma County has federally 
recognized tribes. One of these tribes has an existing casino facility 
and the four others are at various stages of attempting to establish 
gaming operations. Napa and Solano do not currently have any recognized 
tribes within their jurisdictions. Due to our shared proximity to the 
lucrative San Francisco urban market, gaming promoters representing, or 
loosely affiliated with tribal clients, continually approach Consortium 
members. Each is attempting to cash-in on the gaming market without 
regard to a tribe's connections or historic ties to a community.
    These, often investor-driven efforts, are an affront both to county 
governments that have worked with local tribes on a government-to-
government basis to address gaming and other tribal development issues 
as well as to locally based tribes. IGRA (which was intended to have 
very narrowly drawn exceptions), as well as the California Propositions 
1A and 5, were passed with the expectation that gaming would be 
conducted on existing Indian lands. Now the exceptions seem to be the 
tail that is ``wagging the dog'' and upsetting the carefully designed 
balance that afforded tribes the monopoly of Class III gaming in 
California.
    In Sonoma, for example, I and other county representatives were 
recently approached by financial backers of an unnamed ``mystery'' 
tribe that wanted to establish a Sonoma County casino. It was clear 
this tribe, the identity of which the investors refused to disclose, 
had not consulted with locally based tribes and was interested only in 
finding a location that placed them within reach of the lucrative San 
Francisco market. This is but the latest of a series of overtures made 
to Consortium members and of regional reservation shopping efforts, 
some of which the Committee has already heard testimony. These 
investor-driven efforts have little regard for a tribe's historic ties 
to an area or to true concepts of tribal sovereignty and jurisdiction 
except to the extent it allows them to open a casino.
    The newest California twist to the ``reservation shopping'' issue 
also shows how the current law now serves to pit tribe against tribe. 
The Consortium is now observing tribes with established casinos trying 
to ``leap-frog'' over other tribal gaming operations to get closer to a 
population center. For example, the Hopland Band of Pomo Indians, a 
Mendocino County based gaming tribe located north of Sonoma, is trying 
to move south along the Highway 101 corridor towards San Francisco, 
passing a Sonoma County tribe's operations that apparently is reducing 
its profits. The location the Mendocino tribe has chosen for its new 
casino is within the historic Rancheria boundary of another Sonoma 
County tribe. The Mendocino tribe has applied to the BIA and NIGC to 
transfer the land to its own tribal trust property and to have it 
designated as ``restored'' so that it is eligible for gaming. The 
Mendocino's tribe's trust transfer application, which is opposed by 
other Sonoma County tribes, is currently pending before the BIA.

The Draft Legislation
    The draft legislation before the Committee takes several important 
steps towards addressing the types of ``reservation shopping'' abuses 
that now appear prevalent in Northern California. The Consortium 
particularly endorses the need recognized in the bill to ascertain a 
tribe's historic and ancestral ties to an area as a threshold before 
allowing newly recognized, restored or landless tribes to take land 
into trust for gaming purposes. This approach is in accord with the 
Consortium policies and explicitly recognizes a distinction between 
tribal entities that have significant documented historical ties to a 
specific area and those that do not.
    Similarly, the Consortium fully endorses the need to have local 
government participating in the decision making process. This measure 
affords local government the opportunity to work in a constructive 
manner with tribes to insure that projects are appropriately sited and 
that the off-reservation environmental impacts of gaming development 
are minimized. One amendment the Consortium would support is to have 
section (1)(A), which addresses newly recognized tribes, provide for 
the same type of local government input as required under section 
(1)(B) for landless or restored tribes. It appears that the equities 
(and need for land and economic opportunities) of newly recognized 
tribes is no different than the needs of landless tribes and both 
similarly require local input and consultation regarding mitigation. An 
unintended consequence of treating the groups differently is to place 
even additional pressure on the current acknowledgment process by 
providing incentives for gaming interests to promote the recognition of 
new tribes to avoid the requirements faced by placing land into trust 
for landless or restored tribes.
    The Consortium also supports amendments to the bill which clarify 
that a county or similar other general government entity providing 
health, welfare and public safety services to the trust land must 
approve a gaming trust acquisition. In California, even if a facility 
and trust land is surrounded by cities, it is still the county that is 
responsible for many public programs that will be impacted by a gaming 
establishment including: emergency services, probation, jail services, 
child and adult protective services, welfare, roads and bridges, 
alcohol and drug rehabilitation, and indigent health. For a tribal 
facility to be truly successful county government must play a role in 
the process.
    The experience in California, driven in part by the restoration of 
illegally terminated rancherias, is that the restored land exception to 
prohibiting gaming on lands acquired after 1988 is being misused. This 
is illustrated in the Hopland tribe's attempt to have land found 
eligible for gaming under the restored land provision (25 U.S.C. 2719 
(b)(1)(B)(iii)) despite the fact the tribe already has land in trust 
upon which it operates a casino and that the land sought is within 
another tribe's historic jurisdiction. Similarly, Alameda and Contra 
Costa counties have been faced with numerous proposals to have land 
``restored'' from remote tribes for gaming purposes. These efforts are 
all attempts by tribes and their investors to evade the two-part test 
under IGRA that provides for consultation between local communities 
(and local tribes) and the Secretary to determine whether gaming on 
newly-acquired trust lands is detrimental to the surrounding community 
and concurrence by the governor in that determination. As the 
``restored lands'' exception appears to be fueling much of the 
reservation shopping effort, it may be appropriate to consider, at this 
point in IGRA's history, elimination or narrowing of the provision and 
to require local government approval of a facility as contemplated 
under the draft legislation.
    Finally, the Consortium is interested in working further with the 
Committee to refine the Indian Economic Opportunity Zone concept. It 
provides a creative mechanism to facilitate the co-location of gaming 
operations to help avoid the ``leap-frogging'' phenomena that now 
appears to be developing while also giving tribes in remote locations 
an opportunity to share more fully in the economic benefits of gaming. 
It appears, however, that additional provisions should be considered 
that take into account various issues, including, the potential size of 
the zone, county approval and a limitation to take future land into 
trust for gaming purposes outside of the created zone(s).

Conclusion
    The Consortium appreciates the sensitive nature of these issues and 
the controversy surrounding any amendments to IGRA. It is therefore 
with genuine appreciation to Chairman Pombo and the Committee for their 
leadership in trying to forge a solution to the reservation-shopping 
problem that the Consortium appears today to present these comments. It 
may be that circulation of the draft bill itself has already had a 
positive effect as the BIA just recently rejected a gaming compact in 
Oregon because land for the facility had not gone through the 
appropriate fee-to-trust process or been subject to IGRA's two-part 
test.
    The proposed bill gives voice to local government concerns and 
creates an opportunity for tribes and local government to work together 
in a respectful constructive manner to achieve mutual goals. The 
Consortium stands ready to assist the Committee as it works towards 
addressing the problems created by ``reservation shopping'' and to work 
with other interested parties to find a balanced fair resolution that 
honors tribal sovereignty and respects the legal responsibility of 
counties to provide for the health, safety, environment, 
infrastructure, and general welfare of all members of their 
communities.
                                 ______
                                 
Exhibit A

 Northern California Counties Tribal Matters Consortium General Policy 
                               Principles

I. Introduction
    California, more than any other state, has experienced an explosion 
of tribal gaming and land development since the 1988 enactment of the 
Indian Gaming Regulatory Act (``IGRA''). This development accelerated 
in California with the 1999 passage of Proposition 1A, and the 1998 
passage of Proposition 5. The result is 54 operational casinos 
maintained by 53 tribal governments in 34 counties, with at least 25 
additional tribal casinos in the planning stage. The scope of potential 
casino development is also reflected in the over 100 federally 
recognized tribes in California, with over 60 existing compacts, many 
of them providing for two casinos per tribe. As these IGRA casinos have 
proliferated, increased tribal gaming wealth, or its promise, has 
provided capital for still more gaming and non-gaming tribal 
development. All levels of state government now face significant 
challenges raised by tribal development initiatives. It is a key 
consideration that these tribal development proposals are generally 
governed by federal Indian law, which affords little protection to 
communities struggling to address the profound local impacts that often 
accompany gaming or other large tribal projects.

A. Purpose of the Consortium
    Many tribal development initiatives, particularly gaming, have 
regional impacts beyond any specific jurisdiction. The Northern 
California Counties Tribal Matters Consortium (``Consortium'') is 
founded by county governments based on the realization that they must 
work together to share expertise and respond effectively to the federal 
legal and policy decisions driving tribal development.
    Along the legal pathway to any type of tribal development, there 
are a series of federal decisions and procedural steps. These steps may 
include tribal acknowledgment, land acquisition, fee-to-trust land 
conversion, approvals for gaming uses of trust lands, and approvals for 
gaming itself. Most of the steps offer a role and some measure of 
influence for the state and affected local governments. While this role 
is not as strong as it should be, it does afford an opportunity to take 
action. Proactive state and local participation is crucial as federal 
decisions are under consideration, because once made, jurisdiction over 
the tribal entity and its members is vitiated by the tribe's sovereign 
status, and key local regulatory powers are preempted once the property 
becomes tribal land. Formation of the Consortium is important to allow 
local governments to work together to understand the rules and laws 
applicable to tribal status and development and to play a meaningful 
and united role in shaping federal and state decisions.
    County coordination is especially critical in Northern California 
where a growing number of tribal entities are attempting to acquire 
land, seek trust status, and advance development proposals for casinos 
and other uses in locations based solely upon market appeal. Some 
tribes are attempting to develop land without regard to current 
reservation location or the existence of historic or other significant 
ties to a chosen location. There are many legal permutations of 
``reservation shopping,'' and many jurisdictions are forced to deal 
with the complex legal issues it raises, often on an emergency basis. 
Reservation shopping is fueled by improved tribal financial capability, 
usually through third-party investors. This creates the ability not 
only to buy land, but also to sustain long-term procedural and 
political campaigns and legal disputes, often exploiting ambiguous 
federal rules and policies.
    Federal laws, regulations, and policies do provide states and local 
government with some opportunity to influence the outcome of tribal 
land development issues. Whether an affected state or local government 
can effectively take advantage of the procedural opportunities 
available to them depends on the governmental entity's knowledge of 
federal law and procedures, its readiness to respond appropriately, and 
its commitment to persevere in a position. A consortium of counties 
provides a more influential body to address federal or state 
legislative and administrative proposals regarding tribal matters.

B. Consortium Goals
    The Consortium has been organized to inform member counties of 
federal Indian law and policy so that they can effectively exercise 
their authority to respond to emerging policy and tribal development 
proposals. Each county belonging to the Consortium has varying degrees 
of experience with the conversion of fee land to federal trust status 
on behalf of Indian tribes and related proposals to develop that land 
for gaming or other economic purposes. In almost all cases, tribal 
plans for trust lands are inconsistent with the host county's general 
plans, ordinances, zoning, environmental standards or other policies. 
These lands and the facilities built on them become exempt from state 
and local taxation, and land use control, and potentially lead to 
serious adverse consequences on affected communities.
    The Consortium's goal is to develop common principles that will 
guide the actions of each county and enable them to influence 
legislative and administrative policies in order to avoid or reduce 
impacts as much as possible. These general principles are intended to 
provide a proactive foundation for county action regarding trust land 
proposals, to give advance notice of county policies and standards to 
those who intend to propose tribal development on such land, and to 
advise federal and state decisionmakers of a county's position.
    The Consortium approach explicitly recognizes the distinction 
between tribal entities that have significant documented ties to 
specific locations in a county and those that do not. While federal 
processes may also apply to this determination, Consortium counties 
will make their own determination with respect to such ties. This will 
guide county responses to tribal development proposals or development 
initiatives, and assist the counties in taking positions in federal 
proceedings. The presumption is that proposals by tribal entities 
without significant ties to specific locations in a county will be 
generally opposed and therefore ineligible for agreements with the 
counties. Those having significant documented ties will be eligible for 
government-to-government discussions and potential agreements 
consistent with Consortium principles.

II. Consortium Basic Principles
    The following principles represent the Consortium's general 
policies toward tribal trust land acquisitions and other development 
proposals on trust lands:

A.  The Consortium is opposed to any federal fee-to-trust request on 
        behalf of any tribe that lacks significant, long-term and 
        documented ties to the specific location in the county where 
        the trust land acquisition or development is proposed.
    The policy presumption is that each Consortium county will oppose 
any trust land request, regardless of the developmental purpose, where 
the tribe on behalf of which trust status is proposed, lacks 
significant ties. Counties will make their own determination on this 
issue and will be active participants in applicable federal 
proceedings. Until the county in question is satisfied that such ties 
exist, or are reasonably likely to be proven, no proposals for county-
tribal agreements will be entertained, and other agreements related to 
the trust land proposal, such as those involving local governments or 
the State, will be disfavored.

B.  In circumstances where a county is satisfied that a tribe, or an 
        unrecognized group seeking federal acknowledgment as a tribal 
        entity, has significant ties to a specific location, Consortium 
        member counties:
        1.  Will work with the Tribe on a government-to-government 
        basis to consider development proposals within the policy 
        framework of the Consortium;
        2.  Will consider proposals to have land placed into trust for 
        any development purpose in accordance with applicable legal 
        authority on tribal purpose, need, and other factors, and to 
        ensure consistency with county ordinances, zoning, 
        environmental standards, health and safety standards, and other 
        applicable development rules and standards;
        3.  Will disfavor gaming-related proposals until it is 
        conclusively shown that the development is fully consistent 
        with Consortium principles and is in the best interest of the 
        county;
        4.  Will reserve the right to participate actively in any 
        tribal acknowledgment proceeding based on the merits of the 
        petition;
        5.  Will oppose federal acknowledgment proposals by groups 
        seeking federal recognition outside the BIA administrative 
        process (by legislation, for example) in the absence of 
        approval of the county or an existing county-tribal agreement;
        6.  Will require that any county-tribal agreement will fully 
        mitigate environmental impacts of the proposed project and that 
        there will be guarantees of substantial compliance with county 
        ordinances, zoning and environmental policies through a 
        Memorandum of Understanding or similar agreement, in which the 
        tribe must provide a sufficient waiver of tribal sovereign 
        immunity to permit enforcement of the agreement; and
        7.  Will oppose the Congressional designation of trust land or 
        the authorization of trust land selections in the absence of 
        approval of the county or the existence of a county-tribal 
        agreement.

III. Implementation Guidelines
    In carrying out these principles, Consortium counties agree that 
they will be committed to the following:

A.  Mutual Respect. The counties will be committed to respectful 
        government-to-government relationships with tribal entities and 
        recognize the unique role and interest of each. The same 
        respect extends to the affected state and local governments. 
        The concept of reciprocal respect will guide the actions of 
        Consortium members.
B.  Information Gathering. The counties affected by tribal development 
        proposals will obtain information needed to evaluate the unique 
        character of tribal status and the impacts of tribal 
        development on the community, and the well-being and economic 
        self-sufficiency of the tribal entity.
C.  Education. The counties will develop, on an individual county or 
        cooperative basis, a public education program to promote 
        informed decisions on tribal proposals.
D.  Active Participation. To protect local interests, the counties, 
        through the Consortium, will participate actively and 
        appropriately in state and federal policy and legislative 
        processes to support the principles of the Consortium.
E.  Trust Land/Development Response. The counties will ensure that any 
        fee-to-trust transaction or other tribal development proposal 
        by a recognized tribe:
        1.  Is subject to a comprehensive agreement (e.g., Memorandum 
        of Understanding) enforceable in federal or state court between 
        the tribal entity and the county;
        2.  Is consistent with the county's general plan;
        3.  Undergoes environmental review that is at least equivalent 
        to the level of environmental review applicable to any 
        comparable non-tribal proposal, including impacts, cumulative 
        impacts, mitigation requirements, and other factors;
        4.  Includes enforceable provisions between the tribal entity 
        and the county under which the tribal entity agrees to make 
        payments to compensate for the government services typically 
        covered by applicable taxes, to provide a negotiated fair share 
        for health, welfare, and safety services, and to offset impacts 
        of whatever developmental activity is proposed. This recognizes 
        that such costs include: a) processing and administrative costs 
        (such as permitting); b) impact mitigation; and c) the ongoing 
        impacts of the activity or development;
        5.  Provides for the payment or mitigation from tribal entities 
        to cover all public sector costs and economic impacts (police, 
        fire, sewer, road, education, housing and others) associated 
        with any development on trust lands;
        6.  Satisfies the health and safety standards (ordinances) of 
        the county, either directly or by enforceable (third part 
        enforcement) tribal ordinances;
        7.  Includes enforceable conditions and limitations with 
        respect to the future development and/or changed use of any 
        land that is to be placed in trust on behalf of the tribal 
        entity; and
        8.  Includes a limited waiver of sovereign immunity of the 
        tribal entity sufficient to permit enforcement of the terms of 
        an agreement in federal or state court, or includes acceptable 
        alternative enforcement provisions.
F.  State and Local Government Relationships. With respect to the 
        relationship between the counties and the State of California, 
        and with local governments in each respective County:
        1.  The counties will respect and seek a partnership with the 
        State and local governments consistent with these principles 
        and the legal rights and responsibilities of these other 
        governments;
        2.  Wherever possible, the counties will provide support and 
        assistance to local governments and the State as they consider 
        trust land and related tribal development proposals;
        3.  The counties will communicate these principles and 
        standards, once adopted, to local governments in each county, 
        the State, and any tribal entity interested in land within the 
        respective county; and
        4.  The counties will seek to make decisions that are 
        consistent with the interests of local governments within the 
        counties that are likely to be significantly impacted by any 
        proposed development.

IV. Conclusion
    Tribal gaming and economic development on trust land presents a 
significant challenge to local governments. Through these principles, 
the counties in the Consortium will cooperate in efforts that protect 
the public interest, and provide information to tribal governments 
regarding the expectations that must be met to proceed with development 
activities. The ultimate goal is to establish a foundation upon which 
legitimate tribal development initiatives can proceed through a process 
of mutual respect and cooperation while fully protecting local 
community and tribal rights and interests.
                                 ______
                                 
    The Chairman. Mr. O'Brien, please.

          STATEMENT OF PAT O'BRIEN, GENERAL MANAGER, 
                EAST BAY REGIONAL PARKS DISTRICT

    Mr. O'Brien. Thank you. My name is Pat O'Brien. I'm the 
General Manager of the East Bay Regional Park District. Some of 
you may know we cover both Alameda and Contra Costa Counties. 
We're the largest property owner in that area. We operate over 
96,000 acres of property and that includes a great deal of 
wilderness areas and parks and trail Systems.
    We also support grazing and about 50 percent of our 
property is grazed which adds to the vegetation demands of the 
property.
    We have many historical and cultural resources of the 
Native Americans that we protect. We're very supportive of the 
Native American community. We do, however, have significant 
issues with shopping for gaming purposes.
    We are not against Indian gaming, but we are against this 
shopping in urban areas. It does create a lot of issues and 
problems; specifically, we have two specific impacts that we 
have had and one a discovery which we would like to bring to 
your attention which is of extreme concern.
    The first impact is at Point Molate in the Richmond area. 
This is a Master Plan Park and there have been two public 
elections for funding for this park.
    Both of them required a two-thirds vote and they got over 
two-thirds vote, so a lot of support for it. When the Navy went 
through a base closing process, an EIS/EIR was completed. It 
allowed for or proscribed a park site on this property, 40 
acres. Our Master Plan proscribed it.
    The City of Richmond approved the plan in 1997. Then came 
Indian shopping and out of some sort of magic the City 
approved, moved forward with a casino which was planned with 
the footprint of it right on top of the park property.
    The California AG's Office has brought forward an issue and 
joined in the suit on the EIR process. So it shows this 
shopping creates somewhat of havoc in terms of planning, public 
support and we were quite concerned about the outcome of that.
    The other is at Martin Luther King Regional Shoreline Park. 
This is over a 1200 acre park; it's in Oakland. It's one of the 
few soft water estuaries in Oakland still preserved. Over 
300,000 people a year visit this site.
    A proposal came forward to put an Indian gaming casino in a 
parcel which is covered on three sides by the park. Significant 
impact. We objected to it. It is a big concern as to the impact 
to the park. We have numerous issues with that.
    However, in our discovery, there has been some very 
questionable actions which appear to have been taken by the 
previous Administration in terms of the Department of Interior 
in that they confirmed sovereignty on the Lower Lake Rancheria 
over the objections of the Bureau of Indian Affairs officials 
and contrary, we believe, to Federal law and regulations.
    We know that in 1994 the Tribal List Act required three 
ways to be recognized: One is through an Act of Congress; the 
second is by Jurisdictional Decree and the third is by Part 83 
Administrative Regulations under the Secretary. But Part 83 
prohibits Administrative recognition of sovereignty if it was 
earlier terminated by Congress. In fact, this tribe was 
terminated in 1956, and yet we can find no authority for the 
recognition of sovereignty of this particular tribe.
    So, it's a big concern to us and we have asked the 
Secretary to provide any documentation. We did get some 
documentation but we would really like this Committee to 
actually look into it too because we think more documentation 
needs to be available for our final judgment.
    So, our issues are: Indian gaming shopping can have serious 
impacts on the community. We have had in the Martin Luther King 
area really a support by the whole community. The City of 
Oakland, Alameda, San Leandro the County of Alameda have all 
objected to this particular proposal and we think they have 
some serious issues. I think your legislation is a very 
important first step to really looking at this overall issue. 
We are very supportive of those efforts.
    The Chairman. Thank you.
    [The prepared statement of Mr. O'Brien follows:]

            Statement of Patrick O'Brien, General Manager, 
                    East Bay Regional Park District

    Chairman Pombo and members of the Committee, thank you for the 
opportunity to appear before you today.
    The East Bay Regional Park District (District) preserves for 
present and future generations a priceless heritage of natural and 
cultural resources near San Francisco Bay in Alameda and Contra Costa 
Counties, California.
    Today, the District manages over 95,000 acres of land consisting of 
65 regional parks, recreation areas, wilderness, shorelines, preserves 
and land bank areas. These areas are linked by 29 regional inter-park 
trials which connect to 1,150 miles of trails within our parklands. 
Ninety percent of the District's lands are protected and operated as 
natural parklands. We provide recreational and educational 
opportunities for millions of Bay Area residents, as well as visitors 
from across the United States and around the world.
    The District is committed to maintaining a high quality, diverse 
system of interconnected parks which balances public usage and 
education programs with protection and preservation of our cultural and 
natural resources. More than 80 percent of District funding comes from 
property tax and assessment district levies in the two counties, park 
user fees, and park memberships.
    Our commitment to cultural resources protection is strong and 
ongoing. Just last December the District acquired 617 acres that 
creates a permanent buffer for one of the most important Native 
American cultural resource sites in the East Bay, the Vasco Caves.
    My testimony today addresses two topics:
    (1)  the direct and adverse impact of Indian reservation 
``shopping'' by gaming developers on one of the crown jewels of our 
District parks, the Martin Luther King Jr. Regional Shoreline Park in 
Oakland, and a proposed new park unit at Point Molate in Richmond; and
    (2)  the discovery of unlawful administrative actions in the 
Department of the Interior that conferred Indian sovereignty on the 
Lower Lake Rancheria over the objections of BIA officials and contrary 
to Federal law and Interior Department regulations.
    A third topic, the draft legislation you have prepared to address 
off-reservation Indian gaming development, is the subject of separate 
correspondence which we will be forwarding to you shortly.

1.  Impacts Of Reservation Shopping On The East Bay Regional Park 
        District
a. Martin Luther King Jr. Regional Shoreline Park
    The Martin Luther King Jr. Regional Shoreline Park is a 1,220-acre 
park visited by more than 300,000 people annually. It protects the 
remainder of a once-extensive marshland at San Leandro Bay, and is one 
of the last salt marshes in Oakland.
    By notice of November 26, 2004, (69 Fed. Reg. 68970) the Interior 
Department announced that the Bureau of Indian Affairs (BIA) would 
prepare an environmental impact statement (EIS) on the proposed 
acquisition of land in trust for the purpose of constructing and 
operating a tribal casino on 35.45 acres of land within the City of 
Oakland and adjacent to the Martin Luther King Jr. Regional Shoreline 
Park. The District, the Cities of Oakland, Alameda, and San Leandro all 
oppose the casino development proposal. The Bureau of Indian Affairs 
reported that as of April 8, 2005, more than 400 letters had been 
received in opposition to the casino development proposal. We know of 
no local jurisdiction that supports it. Moreover on May 18, 2005, 
Governor Schwarzenegger issued a proclamation stating that he will 
``oppose proposals for the federal acquisition of lands within any 
urbanized area where the lands sought to be acquired in trust are to be 
used to conduct or facilitate gaming activities.'' Oakland is one such 
``urbanized area.''
    The District has expended tens of thousands of dollars and 
considerable time in addressing the environmental impacts of the casino 
proposal on the Martin Luther King Jr. Regional Shoreline Park. The 
burdens of the proposal are tantamount to an unfunded mandate, or 
hidden federal tax, on Alameda and Contra Costa County taxpayers. 
Moreover, the future acquisition in trust, if it occurs, will 
permanently withdraw real property from Alameda County's tax base.
    Considerable preliminary evidence has been assembled and submitted 
to the Department of the Interior highlighting the potential adverse 
impacts that a 24-hour, 7-day per week gaming operation would have on 
the security of the Port of Oakland, the safety of flight operations at 
Oakland International Airport, traffic circulation, and existing 
commercial development. The anticipated environmental impacts 
associated with water and air quality, increased noise and light 
pollution, disruptive impacts on the Martin Luther King Jr. Regional 
Shoreline Park, and its wetlands, migratory birds, and shorebirds will 
require considerable additional time and resources to make a full 
assessment of the proposed casino's impacts. It is significant that the 
soils of the casino site are so polluted that the site is subject to a 
deed restriction prohibiting the development of the land for human 
habitation. The site is also subject to a federal consent decree agreed 
to by the U.S. Army Corps of Engineers restricting development to uses 
that would be compatible to the purpose of preserving the Martin Luther 
King Jr. Regional Shoreline Park as habitat for migratory birds and 
waterfowl.
b.  Proposed Gaming Casino at Point Molate, Richmond, CA
    The former Naval Fuel Depot Point Molate (Point Molate) is a 
remarkable property. Despite many years of use by the Navy, Point 
Molate is principally comprised of hillside and shoreline open space, 
with rich natural, cultural, scenic and recreational resources. 
Pursuant to Federal Base Closure actions, the Fuel Depot ceased 
operation in 1995. A community process through the City of Richmond 
created a Base Re-use Plan that selected as the preferred alternative a 
mixed-use historical village centered around a winery, with a retreat 
center, education and job training facilities, housing and light 
industrial land uses. The District has worked closely with the City of 
Richmond on the Plan, including preservation and enhancement of the 
historic shoreline, with the understanding that the public benefits 
from the reuse would be clear and guaranteed.
    The Plan was adopted by the Richmond City Council in April 1997. 
The Navy processed and completed a detailed ``Reuse EIS/EIR'' for such 
uses and adopted a Record of Decision approving the document under 
Federal National Environmental Policy Act (NEPA) in 2002.
    In 2003, contrary to any prior planning or approvals, the City of 
Richmond began a process and in fact sold the land to interests 
representing the Guidiville Rancheria Tribe of Pomo Indians. The 
purpose was to create a major urban gambling casino through an Indian 
Tribe with no apparent ties to the specific land or Richmond area. The 
Guidiville Band has now proposed an ``off reservation'' casino with 
some 1,100 hotel rooms, 150,000 square feet of gaming and related 
facilities.
    The prior community approved plan, and the accompanying NEPA 
document have apparently been discarded, and the proposed casino 
located on top of a 40 acre public park site.
    Point Molate has been a part of the District's Master Plan for 
decades and the recent ballot measure approved by over two-thirds of 
the voters in November 2004 contains funding for Point Molate projects. 
Moreover, as long ago as 1988, the citizens of the District voted, also 
by more than a two-thirds majority, to tax themselves to raise funds 
that would be used in part to acquire land and develop facilities for 
public use at Point Molate.
    Opposition to build an ``off reservation'' casino at Point Molate 
includes community groups, environmental organizations, and the Contra 
Costa County Board of Supervisors. The District, along with local 
community groups, has filed suit under California's California 
Environmental Quality Act in order to require an open and public review 
of the project, which by law, should have occurred prior to approval by 
the City. The California Attorney General has recently joined the 
lawsuit on the side of our District arguing that California law has, in 
fact, been violated by the actions to date allowing the casino project 
to proceed. We are grateful also for the Governor's May 18, 2005, 
proclamation regarding urban gaming, which reflects a policy consistent 
with our community values.
    Nonetheless, current federal law and regulations severely limit our 
ability to have a voice in this new casino project.

2.  Unlawful Administrative Actions In The Department Of The Interior 
        That Conferred Indian Sovereignty On The Lower Lake Rancheria
    In the course of reviewing the trust acquisition and casino 
development proposal at the Port of Oakland site adjacent to the Martin 
Luther King Jr. Regional Shoreline Park, we discovered evidence from 
Department of the Interior and Bureau of Indian Affairs documents and 
other materials that call into question the Lower Lake Rancheria's 
status as a federally recognized Indian tribe. The results of our 
research to date are set forth in the June 2, 2005, correspondence to 
the Secretary of the Interior that is attached to our written 
testimony.
    In the Federally Recognized Indian Tribe List Act of 1994, Congress 
specifically limited the means by which Indian tribes may receive 
Federal recognition:
    (1)  By an Act of Congress;
    (2)  Pursuant to Interior Department and Bureau of Indian Affairs 
Administrative procedures in 25 CFR Part 83 (the regulations are not 
applicable to tribes terminated by an act of Congress); or
    (3)  By a decision of a United States court.
    In 1956, Congress terminated the Lower Lake Rancheria by disposing 
of the Rancheria land in fee simple and effectively terminating Federal 
relations with the reservation's lone Indian occupant. There is no 
record of any Indian tribe having ever been associated with the 
Rancheria.
    In the half century since Congress terminated the Rancheria, no 
court has ruled that the congressional termination was unlawful. Under 
the circumstances, the only way that Lower Lake Rancheria could be 
restored to recognition was by an act of Congress. Congress has not 
done so.
    Nonetheless, in December 2000, at the end of the last 
Administration, the Assistant Secretary for Indian Affairs issued a 
letter that purported to grant administrative federal recognition to 
the Lower Lake Rancheria. The Bureau of Indian Affairs experts on 
tribal status in the Branch of Acknowledgment and Research vigorously 
objected to the Assistant Secretary's intended decision. They wrote: 
``Unless the Assistant Secretary-Indian Affairs (AS-IA) has clear 
authority to act outside the acknowledgment regulations, and has 
conducted a competent, neutral study of the facts in those cases, the 
Department's credibility as an unbiased agency asked with acknowledging 
tribes will be damaged by arbitrary acknowledgment....'' The experts 
were overruled and Lower Lake was recognized.
    A subsequent Inspector General's investigation into other 
questionable tribal recognition decisions at the end of the last 
Administration found evidence of a politicized administrative process 
and apparent criminal conduct.
    Had the last Administration followed Federal law and its own agency 
regulations, we would today not have to bear the burden of an unfunded 
mandate costing the District tens of thousands of dollars to 
participate in a process that is the result of an illegal act. Instead, 
the Martin Luther King Jr. Shoreline, which was thirty years in the 
making, is now threatened and our confidence in the commitment of 
federal officials to act within the limits of their authority is 
shaken.
    We request that the Committee review the attached information 
regarding the Lower Lake Rancheria, and include it in the record of 
this proceeding. Upon completion of that review, we ask that you join 
is in requesting the Secretary to retract the invalid recognition of 
the Lower Lake Rancheria, suspend the pending trust land acquisition, 
and remove the Lower Lake Rancheria from the list of recognized tribes, 
unless and until Congress restores it to Federal recognition.
    The record we have examined is not complete. The District has a 
Freedom of Information Act request pending in the Department of the 
Interior. Accordingly, our testimony is based on the record that is 
available at this time.
    Thank you for the opportunity to present this testimony: I will be 
happy to address any questions you may have about it.
    NOTE: Attachments to Mr. O'Brien's statement have been retained in 
the Committee's official files.
                                 ______
                                 
    The Chairman. Ms. Schmit, please.

             STATEMENT OF CHERYL SCHMIT, DIRECTOR, 
                    STAND UP FOR CALIFORNIA

    Ms. Schmit. Thank you. Cheryl Schmit, Stand Up For 
California. I have already submitted my written testimony for 
today and my letter from March on your original draft.
    I just would like to make a few points today, very briefly. 
Reservation shopping in California takes on many different 
forms. We have tribes who have land acquisitions that are both 
mandatory through Acts of Congress or discretionary where 
tribes are attempting to get restored lands.
    We have tribes who are making land acquisitions that are 
contiguous or adjacent to existing reservations or rancherias 
and tribes who are attempting to do land settlements, some that 
are legitimate land settlements and others that are land 
settlements that again like some of the restored lands issues 
do not have the legitimate claims to the land.
    Then we have a number of issues in this State where tribes 
have taken land into trust under the guise of that it was going 
to be for housing or for a medical clinic and instead it has 
turned out to be for gaming.
    Then additional pieces of ad hoc legislation which create 
opportunities for gaming and which, Chairman Pombo, you 
recognized last year in the amendment bill, H.R. 4908, which I 
really appreciate as the citizens and that Committee likewise 
appreciate.
    Off-reservation proposals are having a domino effect of 
impacts on local communities. There are political and legal 
impacts that are existing. We have had referendums, recalls, 
County Grand Juries, Federal Grand Jury investigations and 
litigation over the California Environmental Quality Act, 
redevelopment agencies abuse, a number of different types.
    This is also reflected in some of these very small Tribal 
governments that are really actually organizing for the first 
time. There are internal enrollment disputes and continued 
conflict.
    The gaming investors and clearly the list of off-
reservation tribes' proposals that we have in the State today 
documents that we have investors coming into the State that are 
generating these proposals. These are ever-clever investors and 
they are constantly finding new ways of acquiring new land in 
order to create new, unchallenged exceptions for gaming.
    I have two examples that are in Northern California right 
now:
    We have the Alturas Tribe who is currently constructing a 
gaming facility on fractional interest allotment land over 
which it has just recently begun to exercise governance, land 
which is a significant distance from the tribe's established 
land base and recently proclaimed to be under the tribe's 
governance. They have not negotiated any type of agreement with 
the local government and there are tribes in the area there 
that are stuck with this ongoing construction.
    The second example involves the Santana family, an 
individual Indian family owning trust allotment land as of 
2000, which is transferring governance of this very marketable 
location in the City of Cloverdale, which is about 8,000 
people, to the Hopland Tribal Government located about 50 miles 
away.
    Your legislation addresses some of these land schemes head 
on by requiring historic tribal government nexus with the land 
and local control but there are many exceptions that this 
legislation may wish to give consideration to or the Committee 
may wish to direct the Secretary of the Interior to begin 
holding consultation hearings on the key process and in 
California with local government.
    Your legislation addresses local control. Accepting input 
from local governments and affected communities I think is 
significant because in the long run it will ensure the well-
being of the public and the working order of local 
jurisdictions and clearly the long term success of Tribal 
Governments.
    The standard for California views with considerably concern 
the economic zones that are set forth in the bill. CSAC has 
made many suggestive revisions and modifications that support 
concerns of citizens and communities affected by tribal gaming.
    But we still view these and support the revisions in 
general but we caution that there will be a lack of acceptance 
and support for the idea of economic zones even as modified in 
CSAC's language and for three very good reasons. An Economic 
Zone is an incentive to identifying an area that is not 
currently Indian country which invites the abuse of land 
speculators and gaming developers who will drive the decisions 
about the location of these zones rather than the cool minds of 
policymakers.
    Economic zones are a recipe to bypass environmental 
regulations and review that will encourage the development of 
mega-casinos in urban areas or in sensitive rural areas.
    IGRA is already riddled with loopholes as everyone is 
beginning to discover like the restored lands exception in the 
two-part determination. It is basically promoting, at least in 
California, a land draft with meaning.
    I would like to express my great appreciation to you for 
being willing to bring these contentious issues forward and to 
try to address it in legislation. It is something that 
California significantly needs.
    The Chairman. Thank you.
    [The prepared statement of Ms. Schmit follows:]

     Statement of Cheryl Schmit, Director, Stand Up For California

    My name is Cheryl Schmit. I would like to thank Congressman Pombo 
and other distinguished members of the Committee of resources for 
providing me this opportunity to speak before you today on behalf of 
affected community groups across this great State of California. My 
organization, Stand Up for California, serves as an advocate and 
information resource for community groups and policy makers trying to 
understand and respond to the complexities surrounding the expansion of 
tribal gaming. My being here today demonstrates this committee's 
recognition that all affected parties must be invited to the policy 
debate that is essential to ensuring fairness, objectivity and 
accessibility.
    We support the efforts of citizens who want to make sure that there 
are adequate protections for all communities adversely impacted by 
unregulated gambling expansion. We do not seek to impede the economic 
progress and advancement of California's native peoples; rather we seek 
regulatory reforms that we believe are in the best interests of all the 
inhabitants of this State.
    We sincerely appreciate the effort of Congressman Pombo to bring 
forward legislation in an attempt to restrict the proliferation of 
tribal gaming and at the same time encourage greater local government 
involvement in the mitigation of impacts.
    Voters were emphatically told in Propositions 5 and 1A that the 
ballot measures would be a limited exception to the prohibition on 
casino style gaming and would not result in the proliferation of urban 
casinos. Yet here we are today, with more proposals than any other 
state all in varying stages of development. It is clear that off 
reservation land acquisitions for gaming will undermine the 
constitutionality of California's Indian gaming industry. Moreover, off 
reservation casinos pose a serious threat to the tribal gaming 
industry, as the public support which tribal governments enjoyed in 
2000, is evaporating. The California electorate now feels betrayed by 
the broken promises of no urban casinos.
    California is significantly affected by tribes continuing to 
reservation shop for new casino sites off established reservations and 
without historic ties. Tribes and gaming investors continue to promote 
numerous exceptions under IGRA for off reservation casinos that allow 
for the development of gaming on lands acquired after the 1988 cut off. 
The list I am providing you includes land acquisitions that are 
mandatory and circumvent the Governor, discretionary requiring 
gubernatorial concurrence and several exceptions to acquire land for 
gaming in accordance with IGRA--such as contiguous lands, land 
settlements through litigation or ad hoc legislation. This list 
continues to document the influence of gaming industry dollars on 
federal Indian policy for land acquisitions and tribal recognitions.
    Many California tribal groups qualify for gaming due to the 
enactment of Senator John McCain's 1994 legislation. The unintended 
consequence of the List Act (Technical Corrections Act of 1994, Section 
5, Pub.L.103-263, 108 Stat. 707 (May 31, 1994)) in California relates 
to Rancheria lands that were owned in fee--not in trust by the United 
States. The misapplication by the BIA of the Senator's amendment has 
allowed numerous land-based groups to be elevated to the federal 
recognition list despite legitimate questions that should have 
occurred. Many of the Rancheria tribal groups began to organize for the 
first time in 1994 and to develop off-reservation casinos.
    Off reservation gaming has created a domino effect of impacts. It 
has created numerous instances of internal enrollment disputes over 
Indian lands, gaming money and power. It has set off political and 
legal impacts on local governments and the surrounding communities of 
citizens.
    But gaming investors are ever-clever, coming up with new ways of 
acquiring new land in order to create new unchallenged exceptions for 
gaming. Two great examples exist in Northern California today:
    <bullet>  The Alturas tribe is currently constructing a gaming 
facility on fractional interest allotment land over which it has just 
recently begun to exercise governance--land which is a significant 
distance from the tribe's established land base and recently proclaimed 
to be under the tribe's governance.
    <bullet>  The second example involves the Santana family, an 
individual Indian family owning trust allotment land as of 2000, which 
is transferring governance of this very marketable location in a City 
of Cloverdale (population: 8,000) to the Hopland tribal government 
located approximately 50 miles away.
    Your legislation addresses some of these schemes head-on by 
requiring a historic tribal governmental nexus with the land and local 
control. But, there are many exceptions this legislation needs to give 
further consideration too.

Local approval
    Your proposed amendments to IGRA would protect and ensure the well-
being of the public, the good working order of affected local 
jurisdictions and the long-term success of tribal governments. Your 
legislation addressing local input is greatly needed.
    While the amendment specifically would remove the sole discretion 
of the Governor to approve off reservation casinos it appears to expand 
the approval to all affected parties. This amendment will require 
precise language to clarify the approval process.

Revisions and Zones
    Stand Up for California views with considerable concern the idea of 
economic zones as set forth in the bill. CSAC has made many suggested 
revisions and modifications that support the concerns of citizens in 
communities affected by tribal gaming. Stand Up For California supports 
these revisions in general but would also caution there is a lack of 
acceptance and or support for the idea of economic zones, even as 
modified in the CSAC language.
    <bullet>  An economic zone is an incentive to identifying an area 
that is not currently Indian country which invites the abuse of land 
speculators and gaming developers who will drive decisions about the 
locations of these zones rather than the cool minds of policy makers.
    <bullet>  Economic zones are a recipe to by pass environmental 
regulations and review that will encourage the development of mega-
casinos in urban or sensitive rural areas.
    <bullet>  IGRA is already riddled with loopholes--like the restored 
lands exception to the two-part determination in Section 20 of IGRA--
which has promoted a land grab for gaming.

Conclusion
    Overall, while we sincerely appreciate the opportunity that this 
draft legislation presents for a public debate on the impacts of tribal 
gaming, we believe a more moderate approach will be less objectionable 
and consistent with the delicate balance between the rights and 
authorities of states, tribes and the federal government. For example, 
we believe that rulemaking at the administrative level--a formal 
revamping of the fee-to-trust process for all new land acquisitions is 
a good beginning.
    It is without a reasonable dispute that ``Reservation Shopping'' is 
driven by out of state gaming investors, carefully controlling their 
clients (a.k.a. tribes) and making ``development agreements'' rather 
than ``management contracts''. These gambling interests are 
deliberately circumventing the National Office of Indian Gaming 
Management and the National Indian Gaming Commission by seeking to have 
land taken into trust as restored lands. This type of abuse demands 
federal regulatory action to protect the integrity of tribal gaming 
operations and protect state and local governments.
    <bullet>  An incremental change requiring approval of all 
agreements is necessary as IGRA only requires management contracts to 
be reviewed and approved.
    Stand Up for California would like to see the full support of the 
Conference of Western States Attorneys General and the support of all 
Governors for this legislation. We thank you for your willingness and 
courage to raise these timely and contentious issues in an open and 
respectful debate.
                                 ______
                                 
    The Chairman. I am going to start with Mr. McGowan. Just to 
clarify the position of California Counties, there is not a 
general opposition to Indian gaming on Indian trust lands now 
or reservation lands now?
    Mr. McGowan. No, there is not. We have chosen not to weigh 
in on the question of the use of the land. We do not have any 
formal opposition at all or any policy objection to Indian 
gaming, provided it's carried out in the manner required under 
the State and Federal law.
    Our issue primarily has always been the impacts of on-
reservation activity on the surrounding lands. We are, the 
County Supervisors are, essentially as our State Council 
Members are, in their own purview. We are the stewards of the 
land and protectors of the environment except on Indian land.
    Our issue is that, that activity should not be carried out 
in such a way that would adversely impact the neighborhood. My 
rights extend to the end of my fist, but they stop somewhere 
short of your chin. Our issue is that we set a level of 
compatibility as far as honoring and respecting Indian 
sovereignty, including its use of the land for gaming purposes, 
but also having our responsibilities honored as well.
    We believe quite frankly that through some requirements for 
negotiation of those impacts and for judicially enforced 
standards that most if not all of the concerns between tribal 
wishing to engage in gaming and the County can be met. We feel 
actually very confident about that.
    Our main issue is the inclusion of local jurisdiction, 
especially counties, in this decisionmaking process.
    The Chairman. In the draft legislation we deal with local 
government having a bigger voice in approving certain Indian 
gaming facilities, but as a Supervisor, you are aware that if a 
development comes in, you have to be able to show a nexus 
between the impact and what is being required of that 
development to pay for.
    Mr. McGowan. Yes, sir.
    The Chairman. To expand on Mr. Costa's idea that the State 
have a policy in regards to Indian gaming, if that State policy 
requires a negotiation between, consultation and negotiation 
between the sovereign tribal government and local government to 
have that tribe pay for whatever their impacts are on traffic 
or what have you, if that was part of the State compact 
process, would that address what the bulk of your concerns are 
in terms of impacts, particularly on rural counties?
    Mr. McGowan. It would go a long way. You're talking about 
just the compacts. We're dealing with that right now with 
trying to get these kind of provisions included in the new 
compacts.
    Governor Davis began the process at the very end of his 
term and then Governor Schwarzenegger has picked up that and 
has included local jurisdictions as one of the entities that 
must be reckoned with in that fashion. That is, we have an 
opportunity to negotiate to try to reach an accord. If we are 
unsuccessful, there are actually repercussions for the side 
that is unreasonable in that regard.
    Once an agreement is reached, then there are the judicially 
enforceable--there will be an enforcement.
    We supported that. We would like to see a policy in 
California that goes beyond just a compact because at the heart 
of this for us is what you mentioned in the very beginning, is 
this need for the nexus. Counties and cities for that matter 
are very comfortable with doing that analysis and coming to 
requirements for the development that meet that nexus test. We 
do it all the time.
    So it's not a new thing for us to deal with that, even if 
it's a gambling casino in the middle of your jurisdiction. What 
we're asking for in essence is, give us that opportunity to do 
that which we do very well already.
    The Chairman. Before my time expires, I'm want to go to Ms. 
Schmit. In regards to the Indian Economic Opportunity Zones, 
the law is not guaranteeing Indian gaming success to every 
tribe. That was never contemplated. But in moving forward with 
this legislation, I don't want to take away the opportunity 
either.
    So the idea of having an Economic Opportunity Zone was to 
try to avoid some of the other issues that you raised in your 
testimony with one tribe trying to leap-frog another, others 
trying to use the system in order to be in an economically 
superior place, but to work with local tribes, local government 
and tribes that are seeking that opportunity and to try to 
consolidate that within what we call the Economic Opportunity 
Zone. That is the purpose of it.
    I believe if you take that out of the draft legislation, 
you are risking the possibility that you would be taking 
opportunities away from tribes that currently exist for them. I 
don't want to do that. So we're trying to thread this needle 
and say, ``The opportunity is there for those who chose to do 
it.'' Not every tribe chooses to game.
    As Mr. Costa talked about it, about half of the ones in 
California chose not to now. If you look across the country 
it's similar to that. But those who do choose to game, I would 
rather have that done in a more orderly fashion than what we're 
currently experiencing right now.
    Ms. Schmit. Right, and I understand that in the 1999 
compacts, it was clearly in the compact that was referendumed, 
and it was also I believe in Prop 5, there was the component of 
revenue sharing made available to the non-gaming tribes of the 
State and that was supposed to be an incentive not to open up 
gaming.
    Clearly, that revenue sharing continues today and many of 
the tribes that are promoting off-reservation casinos, not all 
but many, are very small numbers in the population and revenue 
sharing right now is at 1.2 million.
    Unfortunately, this amount of revenue when it goes to these 
tribal governments, one tribe that I know of specifically is 
splitting it 60 percent with the members and 40 percent with 
the Tribal Council to go out and attempt to do reservation 
shopping. So that incentive to decrease the proliferation of 
gaming has kind of backfired on us.
    I see the benefit to the economic zone, I truly do, but the 
Governor in the compact process there was the idea of--not in 
the compact--but there was this idea that there could be a 
clustering of tribes to create an economic zone basically, and 
it would have State oversight because it would be negotiated 
through Tribal/State compacts.
    But this is not going well. I think it can clearly be 
demonstrated in Southern California between the cities of this 
area in Barstow where we have five or six tribes promoting off-
reservation casinos. There is a debate between the tribes, 
there is a debate growing within the cities. Clearly, the 
citizens are not supportive of all of the casinos in one area.
    Again, I think in my first letter I said it would need to 
be very carefully crafted.
    The Chairman. I understand your concern and the example 
that you use as to how some of this money is being used, I'm 
familiar with the number of tribes that currently have gaming 
that have invested millions of dollars with other tribes who 
don't have gaming to build their economic base within their 
reservation and I have run into that all the time where these 
tribes are actually taking their revenues that they have raised 
from gaming and invested it, not just in themselves, but in 
other tribes. Some with great success and they have been doing 
that.
    So this is controversial. This is a tough issue to get 
around, but I don't want to push us into one particular box and 
make it look like everybody is doing the same thing because 
there have been some real success stories that are out there.
    Ms. Schmit. A successful zone I think that has already been 
created within the State, we can't really call them zones, but 
we have had in the last compact process the Vian Cross 
partnered with the Yuba tribe. That resolved a reservation 
shopping issue in San Diego County very satisfactory. I think 
that says lot about progressive leadership. Some of the tribes 
in the State are willing to do those types of actions.
    So, maybe one of the zones that you are suggesting would be 
agreeable to success.
    The Chairman. Mr. Costa.
    Mr. Costa. Thank you very much.
    Ms. Schmit, are you aware over the years that you have 
participated and been involved in this matter of any sort of 
clear, coherent, statewide policy as it relates to Indian 
gaming in California?
    Ms. Schmit. State policy? Citizens in the early days when I 
got involved with this back in 1996 and at that time under 
Governor Wilson citizens had access to the Governor's office to 
give comment on what they wanted----
    Mr. Costa. I understand and I'm familiar with all of this, 
but I'm talking about under either the Davis Administration or 
under the current Administration notwithstanding this 
proclamation.
    Ms. Schmit. At the end of the Davis Administration, yes, 
there began to be a policy that was being addressed in the 
compacts. With the new Administration, I know the proclamation 
is new, but I have had access to numerous letters that the 
Governor's office has sent to community groups and members of 
City Councils.
    Mr. Costa. Do you think it would be more accurate to 
describe over the last 15 years it's really been more of a 
case-by-case basis than individual sovereign nations that are 
attempting to----
    Ms. Schmit. Right. It has been case-by-case and each tribe 
reasonably is geographical and culturally----
    Mr. Costa. I understand.
    Supervisor Brown, it's good to see you again.
    Since you and I were both in the legislature for part of 
the same time--you have your own experience based upon the time 
you were there--is it clear that there has never really been 
any sort of a statewide policy as it relates to Indian gaming 
in California?
    Ms. Brown. I think the policy has certainly changed. As Ms. 
Schmit was referring, the original compact had a lot more 
deference to the local government than the subsequent Davis 
compact. I think that Governor Schwarzenegger is trying to 
address some of the issues that----
    Mr. Costa. Is there any clear State policy that you and 
CSAC can put your hands on and say, ``This is the policy.''
    Ms. Brown. I would say no. I would say it changes with--
just one of the things that I would like to add is that the 
State of Arizona really doesn't have a lot of the same problems 
that we do because their state compact doesn't allow outside 
investors.
    I think that's certainly an issue that ought to be looked 
at in the future in terms of how we deal with this because that 
has really brought forth a lot of problems for us a lot of 
problems that we never expected.
    Mr. Costa. Supervisor McGowan, do you care to weigh in?
    Mr. McGowan. I would love to. If you strip away the 
niceties, my arrival on the scene as far as Indian gaming 
policies were concerned was a shock, at least I think it is. 
The State of California has done a lousy job in really 
addressing the issue of Indian sovereignty and Indian gaming in 
California.
    When CSAC started, we were just trying to get a little 
attention here and be treated halfway decently. I think most of 
the policy that has occurred here has really happened outside 
of the State Legislature and the Governor's Office.
    Mr. Costa. A number of you have spoken about reservation 
shopping. As I think about it in the years that I have served, 
it seems to be more like today with States in the process of 
issuing franchises and every franchise is a different deal and 
that's what concerns me.
    It seems to me that hopefully we'll get your thoughts 
today, reflect on it and maybe help generally what could be in 
the future prospectively--obviously, those that have come among 
the 64 compacts. Those are agreements and I don't think you can 
violate them by law.
    It seems to me in the future we have to look at where we're 
going. May I add one thing?
    Mr. Costa. Yes.
    Mr. McGowan. It's fundamental that we address this issue 
because for us to fumble around like this, suddenly can change 
to cause tremendous pains and ill will between people of good 
intentions. That would be the tribes themselves, local 
jurisdictions, State jurisdictions, Federal jurisdictions.
    We owe it to each other to get this stuff worked out so 
that there is some understandable way to proceed on the rights 
of sovereign tribes and also responsibilities to State and 
local government.
    Mr. Costa. Quick question: Does CSAC believe that counties 
on a case-by-case basis are given leverage?
    Mr. McGowan. Actually, when we started, that was definitely 
true. As we have become, I think, more intelligent about how to 
deal with these issues and how to develop a relationship with 
the tribes, the counties are less and less in a situation where 
they get leverage on the deal especially if they want to pay 
attention to some of the successful stories from other counties 
and tribes, so we're getting better at it.
    Mr. Costa. Thank you.
    Mr. Gohmert. Thank you. I have been doing a lot of reading 
and trying catch up on this issue.
    It has not been a major issue in Texas. Just to make sure 
that I understand and I'm on the same page and understand 
exactly.
    My review of the draft bill indicates that this would end, 
and what we have heard discussion about is the two-part 
determination under IGRA. This proposed bill would end that and 
prohibit the tribes from crossing the state lines and build 
facilities where they don't even have a reservation.
    It would allow Economic Opportunity Zones with each State 
where Indian gaming is legal, but some of the high points that 
jumped out at me if I understood correctly, a zone has to be 
approved by the State and local government which would give, 
the way I understand it, everybody including everybody here an 
opportunity to come and weigh in and make sure the people that 
they put into office represented their interests.
    With regard to landless tribes, restored or landless 
tribes, with requirements for getting land for gaming, only if 
it is on their geographically historical area--the State and 
local governments once again are the ones who have jurisdiction 
and have to approve that. Is my understanding of your proposed 
bill correct, Mr. Chairman?
    The Chairman. That's the way the draft now reads.
    Mr. Gohmert. So, there is nothing like local control and it 
sounds like there hasn't been enough of that, working together. 
I'm just curious as is my staff.
    I have been a judge for many years so I'm kind of new to 
this. If this is out of line, you can sure tell me, but since 
you don't have a bailiff who will put me in jail, I'll ask it.
    We have such a huge turnout here and it's obviously a 
nonscientific poll, but by indication of hands, how many here 
feel like you understand the draft of the proposed legislation?
    Not too many, is it? From what you do understand, how many 
support the legislation that appears that appears that it would 
reign in some of the past abuses and allow more local control? 
If I could see a show of hands in favor of that?
    How many oppose the new legislation? We have a lot of those 
don't yet have an opinion; they are just here. It's still a 
good indication that this many people care and will come 
forward and have been looking into it. I know that you have 
already indicated that you will allow additional witness 
statements and written questions, so I would just encourage 
anybody that does wish to submit a written statement to do so.
    From the four of you, are all four of you in favor of what 
you have seen of the proposed legislation?
    Mr. McGowan. CSAC's position is that we haven't taken a 
position directly on the bill. We will be prepared to do that. 
We're very happy. We like this progress. We think it is long 
overdue.
    There is much of it that touches us in our hearts as far as 
local control is concerned. We would want to work with you all 
about stands versus zones. I don't think it's possible. CSAC 
does not have a position on that.
    But this is progress, to see this kind of thoughtfulness 
come out of the House is very important to us. It does touch 
many of our issues. We want to work with you all.
    Ms. Brown. I think the one thing that might be interesting 
to share with you from the California perspective and being a 
supervisor in county government is that we are mandated by the 
State to put together a general plan and that general plan has 
any number of elements dealing with infrastructure, dealing 
with water, agriculture, housing, all of the elements. It's a 
20-year plan.
    When you have looked at your county from a 20-year 
perspective, today and tomorrow you have an investor who comes 
in on a 50-acre to 75-acre parcel and says--``Guess what? I 
know that that was previously ag, but now we see it as a 300-
room hotel, an entertainment facility and a casino.'' It hugely 
upsets the apple cart. From our perspective, it's important 
that they are in at the beginning.
    We have five tribes in Sonoma County and I will tell you 
that four of them have been very willing to work with the 
County, even though one tribe is a restored tribe and has no 
requirement to do that whatsoever. They can do what they want. 
They are sovereign. They have insisted on having public 
hearings and working with the County.
    It's been a very good lesson for us. I think what we're 
trying to do is encourage that more because we are communities 
that live side by side and we are governments that work side by 
side. We have to understand where that goes.
    Mr. O'Brien. I think it's a more profitable process. It 
certainly puts a degree of rationality and planning which so 
far as we have seen the reaction is that it goes against the 
community. Some of them shopping but most of the time it seems 
to go against the community interests and understandings of 
work relationships.
    Those issues need to be out on the table so people can deal 
with them in a legitimate way.
    Mr. Gohmert. Ms. Schmit, I'm not familiar with Stand Up For 
California but I assume that you do advocate more than just 
standing up. Are you in a position to say you support this type 
of legislation or you're against it.
    Ms. Schmit. Right. We're not taking a position on the draft 
legislation.
    Mr. Gohmert. So, you're just in a standing up mode.
    Ms. Schmit. It's important to recognize the vision that 
CSAC has put forward in general. What we're really supporting 
is the fact that the Congressman is willing to bring this up in 
debates, the fact that it is being debated in the House.
    These are very contentious issues in the community where 
there is reservation shopping and it's detrimental to the long-
term success of the tribes as it is detrimental to the citizens 
of the community. We need some way to address these issues 
through policy, through legislation, that allows us to live 
side by side in this.
    We can do this. In my county, I live in Placer County, we 
faced this nine years ago. We had a tribe who through ad hoc 
legislation was restored to Federal recognition. My neighbors 
went crazy and it required some people to step back with cool 
minds and think about this.
    We were very fortunate in our county. Our County Supervisor 
and our Congressman worked very closely with our county and 
agreed upon a location in an appropriately zoned area that was 
consistent with the general plan of our county. The agreement 
that the tribe made with our county is a comprehensive 
agreement. It did not infringe upon their sovereignty. Rather, 
it was a very eloquent demonstration of the exercise of our 
government. So, our county is not impacted like other 
communities have been.
    Mr. Gohmert. One of the darkest clouds on our American 
history has been a number of agreements made with Native 
Americans that have been broken, just discarded. It's a 
terrible testimony of our past history.
    So I appreciate input from everybody to kind of get me up 
to speed. We just need a mechanism in place that allows both 
sides of this issue to hold the other accountable for any 
misrepresentation, whether it's the tribe holding the 
government accountable or the local government holding the 
tribal government accountable to the agreements. Thank you for 
your time.
    The Chairman. I am going to dismiss this panel. Thank you 
for your testimony and for answering questions. Any further 
questions will be submitted to you in writing and if you will 
answer those in writing I would appreciate it.
    Those of you who are testifying, please stand up and be 
sworn.
    [Witnesses sworn.]
    The Chairman. Let the record show that they answered in the 
affirmative.
    The Chairman. Welcome to the Committee hearing, Chairwoman. 
We're going to begin with you but before you start I remind you 
that your entire written testimony will be included in the 
record. If you can summarize that and keep your oral testimony 
to five minutes, it would be appreciated. Thank you.
    Before you begin, if I could just have order in the room. 
We don't have any microphones in here and it's difficult for 
the court reporter to hear. I would ask you to speak up when 
you testify but if I could have a little bit more order in the 
room, it would help everybody here.
    Chairwoman Mejia, please.

            STATEMENT OF MARGIE MEJIA, CHAIRWOMAN, 
                  LYTTON BAND OF POMO INDIANS

    Ms. Mejia. Congressman Pombo, distinguished members of the 
Committee on Resources, thank you for inviting me to 
participate today. My name is Margie Mejia and I am the 
Chairwoman of Lytton Band of Pomo Indians.
    To understand why we are here today, it's important to 
understand something about the history of our tribe. Like most 
California tribes, we are a small group with about 275 members. 
Like many other California tribes, most of our members live in 
poverty. Many have no or inadequate health care. Alcoholism and 
substance abuse are continuing problems. We have many families 
living together in tiny apartments.
    Until the 1950's, we did have land. That land was in Sonoma 
County. Today this is the site of some of the most prestigious 
wineries anywhere in the world, but the reason that today there 
are vineyards on that land instead of our homes is the result 
of actions taken by the Federal Government.
    In the 1950's, the Government decided to terminate the 
small Native American bands like ours as part of a failed 
Federal experiment to abolish reservations and forcibly 
assimilate Native Americans into urban areas. The result was 
that we lost both our legal identity and our land, but we never 
lost our existence as a community. Many of us continue to live 
together and to take care of tribal members in need as we do to 
this day.
    Eventually we sued the United States and the outcome of 
that suit is that the Federal Government admitted it had broken 
the promises it had made in the termination agreement. In 1991 
our tribal status was restored; however, that settlement 
effectively barred us from returning to our private land in the 
Alexander Valley by prohibiting us from operating a gaming 
facility in the area.
    We had no choice but to agree to this condition because 
otherwise with little or no resources of our own, we would have 
been forced to fight a protracted legal battle against a group 
of wealthy wineries and the County. After restoration we re-
established our Tribal Government, passed a Constitution and 
the right to Tribal Council.
    We also began to look for a means out of the relentless 
poverty many of our members face and to rebuild our tribal 
community. We turned to gaming since the Government offered 
that to us as means of economic development and because it 
generates enough money to allow us to get a loan and finance 
the rebuilding of our tribe and tribal community.
    In 1991, the restoration agreement, while barring us from 
operating a gaming facility in Sonoma County, did not foreclose 
on our right to find another community that might welcome us as 
partners. We found our road to economic self-reliance in the 
City of San Pablo. With the help from private investors we 
purchased an existing card club that had been approved by the 
local voters in 1994.
    The City and the Tribe then negotiated a Municipal Services 
Agreement. At the time, such an agreement was unprecedented in 
California and was the most protected arrangement between local 
interests and an Indian tribe in California.
    But there were other hurdles to come. Although it was the 
Government's wrongful actions which resulted in the loss of our 
land, by the time the Government had admitted that and prepared 
to make good on our loss, the legal landscape of the tribes had 
changed.
    The law had been passed which made it extremely difficult 
for tribes to operate gaming on land taken into trust after 
1988 unless Congress made that land eligible. Even though it 
was not our fault that we were in this position and although 
the law had not been intended for landless tribes, but rather 
tribes with existing reservations, our efforts to seek help 
from the Department of Interior went nowhere.
    Finally, Congress acted to take that land into trust for us 
as it had in the case of many other tribes in California and 
other states. This was the final option after we had tried 
everything else. Thanks to the efforts of Congressman George 
Miller, that proposal was introduced in legislative form in 
October of 2000.
    On December 27th of that year, the President signed the 
bill into law. There were newspaper articles about this at the 
time, and subsequently there were two attempts to repeal this 
proposal. Neither of those met with success. Relying on support 
of Congress, we have made a substantial investment of time and 
money toward gaming development.
    We have negotiated generous agreements with both local and 
State governments and have made every effort to be a good 
neighbor. In fact, we believe we are doing exactly what the 
Federal Government wanted us to do when it refused to settle 
our restoration lawsuit until we agreed not to conduct gaming 
in Alexander Valley. The Government told us to look elsewhere 
and we did.
    The Feinstein legislation represents another broken promise 
made to the Lytton Tribe by the Federal Government. It is 
nothing short of another Congressional termination. We believe 
that our right to conduct gaming is a valuable property right 
protected by the United States Constitution and that this right 
cannot be taken from us without substantial compensation.
    In addition, this legislation represents government action 
and regulation that just goes too far.
    The Lytton Tribe, like all American citizens, should not be 
subject to government actions and regulations that deprive them 
of their right to use their lands for economic development 
purposes.
    The act of taking the land into trust for us in San Pablo 
was not the beginning of the story; it was the end of a very 
long story, a story of poor treatment of our tribe at the hands 
of the Federal Government.
    That was an act of redress making good the wrong that had 
been done to us more than 50 years before. To have simply said, 
``We're sorry,'' and offered up a paper apology for the 
treatment of our tribe would have wrong. Taking that land into 
trust represented a meaningful act of redress. Taking that land 
out of trust would make that gesture many empty words.
    This is the background to our proposal for a casino project 
on our land in San Pablo. Our initial proposal in 1998 (sic.) 
was for a modest gaming operation with something on the order 
of 1,000 slot machines. In the proposed compact that we signed 
with the Government last year, that number was originally 
5,000, which was then revised down to 2500 machines.
    Since there has been some controversy about the change, let 
me address that for a moment:
    When we made our initial proposal in 1999, no compact, not 
ours or any other tribe's, provided for any revenue sharing 
with the State of California, nor did these compacts provide 
local and State governments opportunity for substantial 
environmental review, mitigation of local impacts or 
involvement in gaming regulations.
    We stepped up to the plate to do just that, reaching an 
agreement to pay an unprecedented 25 percent of net gaming 
revenues to State and local government, to pay our fair share 
of public services and environmental mitigation. But that 
commitment also required more slot machines than originally 
envisioned.
    We agreed to two exhaustive impact reviews prior to 
anything being built. These provisions are modeled after the, 
CEQA, California Environmental Quality Act, such as the 
inclusion of project alternatives, mitigation and citizen 
participation in the process.
    The compact took one step farther by requiring the Tribe to 
complete agreements of mitigation with its neighbors in the 
City of San Pablo and the local community and State 
Transportation Department.
    Over and above our compact obligations, the Tribe spent the 
past months engaged with the community to hear their hopes and 
concerns about our project. We negotiated and signed a compact 
with the Governor of California.
    We have the strong support of the City of San Pablo where 
the casinos would be located. We believe that this proposed 
compact represented a good for all parties. Notwithstanding all 
that, as you know, the California State Legislature has chosen 
not to act on the compact.
    As a result, we will now focus on our exercising our rights 
under Federal law. We will renovate the interior of the 
existing building to make it more attractive and to offer a 
wider variety of Class II gaming activities, including Class II 
electronic bingo games.
    These are not video lottery terminals. They will fall well 
within the definition of what constitutes Class II gaming. We 
don't tend to push the envelope.
    We did not ask to be in this situation. We did not ask the 
Federal Government to take away our name and our land, but that 
happened.
    Now, decades later when the Government has finally acted to 
right those wrongs, we believe it would be wrong to take away 
our right to pursue economic self-sufficiency.
    If this body wishes to address various issues associated 
with Indian gaming, so be it. But I respectfully ask you not to 
go back and retroactively change the rules for us.
    What this body did in 2000 was the right thing to do. It 
was to make good a wrong the Federal Government had committed 
against our tribe. I ask you to let that act of justice stand. 
Thank you.
    Right those wrongs. We believe it would be wrong to take 
away our right to pursue economic sovereignty associated with 
Indian gaming, but I respectfully ask you not to go back 
retroactively and change the rules for us. What this body did 
in 2000 was the right thing to do. It was to make good on a 
wrong that the Federal Government committed against our tribe 
and I ask you to let that act of justice stand.
    The Chairman. Thank you.
    [The prepared statement of Ms. Mejia follows:]

             Statement of Margie Mejia, Tribal Chairwoman, 
                      Lytton Band of Pomo Indians

    Congressman Pombo and distinguished members of the Committee on 
Resources, thank you for inviting me to participate today. My name is 
Margie Mejia, and I am the chairwoman of the Lytton Band of Pomo 
Indians. To understand why we are here today, it's important to 
understand something about the history of our tribe.
    Like most California tribes, we are a small group, with about 275 
members. Like many other California tribes, most of our members live in 
poverty. Many have no or inadequate health care. Alcoholism and 
substance abuse are continuing problems. We have many families living 
together in tiny apartments. Only one of our members owns a home.
    But until the 1950s, we did have land. That land was in Sonoma 
County, and today this is the site of some of the most prestigious 
wineries anywhere in the world. But the reason that today there are 
vineyards on that land, instead of our homes--is the result of actions 
taken by the federal government.
    In the 1950s, the government decided to ``terminate'' small Native 
American bands like ours as part of a failed federal experiment to 
abolish reservations and forcibly assimilate Native Americans into 
urban areas. The result was that we lost both our legal identity and 
our land.
    But we never lost our existence as a community. Many of us 
continued to live together, and to take care of tribal members in need, 
as we do to this day. Eventually, we sued the United States, and the 
outcome of that suit was that the federal government admitted it had 
broken the promises it had made in the termination agreement. In 1991, 
our tribal status was restored. However, that settlement effectively 
barred us from returning to our tribal lands in the Alexander Valley by 
prohibiting us from operating a gaming facility in the area. We had no 
choice but to agree to this condition because otherwise, with little or 
no resources of our own, we would have been forced to fight a 
protracted legal battle against a group of wealthy wineries and the 
county.
    After restoration, we re-established our tribal government, passed 
a constitution and elected a tribal council. We also began to look for 
a means out of the relentless poverty many of our members faced, and to 
rebuild our tribal community.
    We turned to gaming because the government offered that to us as a 
means of economic development, and because it generates enough money to 
allow us to get a loan and finance the rebuilding of our tribe and 
tribal community.
    The 1991 restoration agreement, while barring us from operating a 
gaming facility in Sonoma County, did not foreclose our right to find 
another community that might welcome us as partners. We found our road 
to economic self-reliance in the City of San Pablo where with help from 
private investors we purchased an existing card club that had been 
approved by local voters in 1994.
    The City and the Tribe then negotiated a Municipal Services 
Agreement. At the time, such an agreement was unprecedented in 
California, and was the most protective arrangement between local 
interests and an Indian tribe in California.
    But there were other hurdles to come. Although it was the 
government's wrongful actions which resulted in the loss of our land, 
by the time the government had admitted that, and prepared to make good 
our loss--the legal landscape for tribes had changed. A law had been 
passed which made it extremely difficult for tribes to operate gaming 
on lands taken into trust after 1988 unless Congress made the land 
eligible. Even though it was not our fault that we were in this 
position, and although the law had not been intended for landless 
tribes, but rather tribes with existing reservations, our efforts to 
seek help from the Department of Interior went nowhere.
    Finally, Congress acted to take that land into trust for us as it 
has in the case of many other tribes in California and other states. 
This was the final option, after we had tried everything else. Thanks 
to the efforts of Congressman George Miller that proposal was 
introduced in legislative form in October, 2000. On December 27th of 
that year, the president signed the bill into law.
    There were newspaper articles about this at the time, and 
subsequently, there were two attempts to repeal this proposal. Neither 
of those met with success. Relying on the support of Congress, we have 
made substantial investments of time and money toward gaming 
development. We have negotiated generous agreements with both local and 
state governments and have made every effort to be a ``good neighbor''. 
In fact we believe we are doing exactly what the federal government 
wanted us to do when it refused to settle our restoration lawsuit until 
we agreed not to conduct gaming in the Alexander Valley. The government 
told us to look elsewhere and we did.
    The Feinstein legislation represents another broken promise made to 
the Lytton Tribe by the federal government. It is nothing short of 
another congressional termination. We believe that our right to conduct 
gaming is a valuable property right protected by the United States 
Constitution and that this right cannot be taken from us without 
substantial compensation.
    In addition, this legislation represents government action and 
regulation that goes ``too far''. The Lytton Tribe, like all American 
citizens, should not be subject to governmental actions and regulations 
that deprive them of their rights to use their lands for economic 
development purposes.
    That act, of taking land into trust for us in San Pablo, was not 
the beginning of this story. It was the end of a very long story--a 
story of poor treatment of our tribe at the hands of the federal 
government. That was an act of redress, making good the wrong that had 
been done to us more than fifty years before. To have simply said, 
``We're sorry,'' and offered up a paper apology for the treatment of 
our tribe would have been wrong. Taking that land into trust 
represented a meaningful act of redress; taking that land out of trust 
would make that gesture so many empty words.
    That is the background to our proposal for a casino project on our 
land in San Pablo.
    Our initial proposal in 1999 was for a modest gaming operation with 
something on the order of 1,000 slot machines. In the proposed compact 
that we signed with the Governor last year, that number was originally 
5,000, which was then revised down to 2,500 machines. Since there has 
been some controversy about the change, let me address that for a 
moment.
    When we made our initial proposal in 1999, no compact, not ours or 
any other tribe's, provided for any revenue-sharing with the state of 
California. Nor did these compacts provide local and state governments 
opportunities for substantive environmental review, mitigation of local 
impacts or involvement in gaming regulation.
    We stepped up to the plate to do just that, reaching an agreement 
to pay an unprecedented 25 percent of net gaming revenues to state and 
local government to pay for our fair share of public services and 
environmental mitigation. But that commitment also required more slot 
machines than originally envisioned.
    We agreed to two exhaustive environmental impact reviews prior to 
anything being built. These provisions are modeled on the California 
Environmental Quality Act such as the inclusion of project 
alternatives, mitigation and citizen participation in the process. But 
the compact took one further step by requiring the Tribe to complete 
agreements on mitigation measures with its neighbors in the City of San 
Pablo, the local county and the state transportation department.
    Over and above our compact obligations, the Tribe spent the past 
months engaged with the community to hear their hopes and concerns 
about our project. As a result, we reduced the size and scope of our 
project, to make it a better fit for the community, while still 
offering the creation of more than 6,600 new jobs.
    We negotiated and signed that compact with the governor of 
California. We had the strong support of the city of San Pablo, where 
the casino would be located. We believe that the proposed compact 
represented a good deal for all parties. But notwithstanding all that, 
as you know, California's state Legislature has chosen not to act on 
the compact.
    As a result, we will now focus on exercising our rights under 
federal law. We will renovate the interior of the existing building to 
make it more attractive and to offer a wider variety of Class II gaming 
activities, including Class II electronic bingo games. These are not 
video lottery terminals. They will fall well within the definition of 
what constitutes Class II gaming. We don't intend to push the envelope.
    We did not ask to be in this situation. We did not ask the federal 
government to take away our name and our land. But that happened. Now, 
decades later, when this government has finally acted to right those 
wrongs--we believe it would be wrong to take away our right to pursue 
economic self-sufficiency.
    If this body wishes to address the various issues associated with 
Indian gaming, so be it. But I respectfully ask you not to go back and 
retroactively change the rules for us. What this body did in 2000, was 
to do the right thing. It was to make good a wrong the federal 
government had committed against our tribe. I ask you to let that act 
of justice stand. Thank you.
                                 ______
                                 
    The Chairman. Assemblymember Hancock.

          STATEMENT OF LONI HANCOCK, ASSEMBLYMEMBER, 
                     14th ASSEMBLY DISTRICT

    Ms. Hancock. Thank you very much, Chairman Pombo. My name 
is Loni Hancock. I represent much of the northeast section of 
the San Francisco Bay Area, including the cities of San Pablo, 
Richmond and Oakland where casinos are being discussed and have 
been proposed.
    I want to thank you for your leadership in continuing the 
discussion around the increasing controversy surrounding off-
reservation casinos and the respective roles of State, Federal, 
tribal and local governments.
    A brief look at how we got here. In 2000 the voters of 
California passed a Statewide initiative, Proposition (1)(A). 
Proposition (1)(A) amended the California State Constitution to 
provide economic development for tribes by authorizing gambling 
casinos on traditional ancestral tribal lands, which were 
predominantly in rural areas. As a matter of public policy, 
California voters made a limited and narrow exception to the 
State Constitution's prohibition of Las Vegas style gambling.
    In that campaign the opponents said, ``You wait, urban 
gambling is going to be next,'' and the proponents of Prop 
(1)(A) said, ``Never, it never will happen, not what we 
intend.''
    Given what they intended is what people voted for. Since 
Prop (1)(A)'s passage, we have seen a good number of tribes, 
more than 50 I believe, followed the Prop and opened gambling 
casinos on their tribal land.
    We have also seen a handful of tribes, with ambiguous 
ancestral ties to land, making claims on that land for the sole 
purpose of opening a gambling casino.
    In the San Francisco Bay area alone, we face a proposed 
development of up to four casinos in a 15 mile radius by tribes 
who have scant, if any, ancestral connection to those lands. In 
the case of the Lytton Band of Pomo Indians at Casino San 
Pablo, which has been designated as a reservation, it's about 
50 miles from Sonoma County where their lands were.
    In another case, the Lower Lake Rancheria Koi Nation is 
proposing a large casino adjacent to Oakland International 
Airport, nearly 150 miles from the tribe's traditional lands in 
Lake County. These are large-scale casinos in clearly in built-
up urban areas would be a violation of the will of the voters 
and the intent of Prop (1)(A).
    Congressman Pombo, your legislation addresses the issues of 
the importance of local community support for any proposed 
gambling casinos. I would like to talk briefly about the local 
community response to the expansion of Casino San Pablo from a 
card room to what would have been in the original compact, the 
third largest gambling casino in the United States, larger than 
anything on the Las Vegas Strip.
    In a fully built-up area, half a block off the I-80 
freeway, which is gridlocked for a large part of every day as 
it is. I would also just like to point out that in Metropolitan 
areas like mine, where one city blends into another, you really 
would need to ask opinions of all the adjacent cities because 
they will all bear negative impacts and they will get no 
revenue under anybody's scenario.
    I sent out a survey to every household with a registered 
voter in it in my district; that's about 156,000 voters. The 
return survey showed overwhelming opposition to the proposed 
casino. 91 percent in opposition and even in the City of San 
Pablo, which had been promised jobs and money, it was 67 
percent opposed.
    Later our local TV station, KPIX, did a survey and in their 
survey return area it was somewhat different. There was a 57 
percent opposition. In addition, the Contra Costa County Board 
of Supervisors passed a resolution, bipartisan, against Casino 
San Pablo and opposing all urban casinos.
    The Alameda County Board of Supervisors also passed a 
resolution against the Koi Nation proposal and cities in the 
surrounding communities have done so as well.
    Recently you have heard that the proponents of casinos say 
they will not do Class III gambling anymore, but will do the 
electronic bingo machines. There are some things you might want 
to look at as well as you are considering several policies 
because those electronic bingo machines actually look like and 
act just like slot machines.
    The technology is improved. The lights, the flashing, the 
noises. You put money in and pull the handle just a like slot 
machine. Each pull costs money; each pull is a gamble.
    It is a slot machine experience with the same detrimental 
social and economic impacts. The same increases in traffic, 
crime, blight, unemployment, gambling addiction and adverse 
impacts on social services.
    The economics of urban gambling were made clear in a 
hearing that we did hold in the District looking at some of the 
research that has been done. There is a difference between, the 
distinction between, ``destination gambling'' and what they 
call ``convenience gambling.''
    Destination gambling being where you go somewhere like Las 
Vegas, you pay your money, you know what you're going to spend 
on your vacation. You leave your money in Las Vegas and you go 
home to wherever home is.
    Convenience gambling does not mean a major tourist 
destination, but rather is the person on their way home from 
work who stops off to pull the handle and leaves without the 
kid's lunch money or the rent money.
    In fact, a recent study conducted by William Thompson at 
the University of Nevada concluded that 85 percent of the money 
made at Casino San Pablo, which is an example of an urban 
casino, 85 percent of the winnings would come from people in 
the Bay Area, meaning again, their discretionary money that 
would otherwise be spent in local restaurants, local 
businesses, local retail stores.
    This may give the appearance of new economic development 
but it's not. It's moving money around and can lead to economic 
losses experienced by local families, local individuals and 
local businesses.
    To conclude, today California is experiencing a 
proliferation of proposals for Indian gambling casinos that 
have little to do with tribal self-sufficiency on tribal lands.
    These off-reservation casinos are, in reality, being 
aggressively supported and financed by out-of-state casino 
developers and their lobbyists who clearly hope to build 
casinos in every urban area of the State.
    These Las Vegas-style casinos in urban areas were never 
intended by the voters of the State of California and any urban 
casino in the area creates a precedent.
    Thank you again, Mr. Chairman for holding this hearing. I 
look forward to seeing legislation that will prevent the 
entrance of gambling casinos in California urban areas.
    The Chairman. Thank you.
    [The prepared statement of Ms. Hancock follows:]

              Statement of Loni Hancock, Assemblymember, 
                   14th Assembly District California

    Good morning Chairman Pombo. My name is Loni Hancock, I represent 
the 14th Assembly District in the California State Legislature. The 
district includes most of the East San Francisco Bay Area including the 
cities of Oakland, Richmond and San Pablo.
    Thank you for your leadership in the House on this controversial 
issue. It is also encouraging to see leadership in the Senate by 
Senator John McCain and Senator Dianne Feinstein who has introduced 
legislation directly related to the Lytton Band of Pomo Indians and 
Casino San Pablo.
    Today's hearing on ``off reservation'' casinos and your draft 
legislation is continuing the discussion on the increasing controversy 
surrounding tribal gambling casinos and the role of the federal, state, 
tribal and local governments. The expansion of tribal gambling casinos 
into urban areas-especially Casino San Pablo-has become one of the most 
controversial issues in my district and in the state.
    Let us look a briefly at the single most important event to the 
authorization and ultimately the expansion of Indian gambling casinos 
into urban areas.
    In 2000, the voters of California passed a statewide initiative--
Proposition 1A. Proposition 1A amended the State Constitution to 
provide economic development for tribes by authorizing gambling casinos 
on traditional ancestral tribal lands. These lands were traditionally 
in remote rural areas. So as a matter of public policy the California 
voters made a limited and narrow exception to the state constitution's 
prohibition of ``Las Vegas'' style gambling. This was the intent of 
Proposition 1A.
    Since Proposition 1A's passage we have seen a handful of tribes, 
with ambiguous ancestral ties to land, making claims to that land for 
the sole purpose of opening a casino. In the San Francisco Bay Area 
alone we face the proposed development of up 4 casinos within a 15 mile 
radius by tribes who have scant, if any, ancestral connection to those 
lands. In the case of the Lytton Band of Pomo Indians at Casino San 
Pablo, the casino's location is 50 miles from Sonoma County--the 
traditional ancestral territory of their tribe. In another case, the 
Lower Lake Rancheria Koi Nation tribe is proposing to build a casino 
adjacent to the Oakland International Airport. This casino proposal 
located in Oakland is nearly 150 miles from the tribe's traditional 
lands in Lake County. Clearly, these casino proposals into the states 
largest urban areas are in violation of the will of the voters and the 
intent of Prop 1A.
    Your legislation, Congressman Pombo, emphasizes the importance of 
local community support for proposed gambling casinos and I would like 
to talk briefly about the local community response to the expansion of 
Casino San Pablo from a cardroom to a full fledged Class 3 gambling 
casino.
    I personally sent out a survey to every household with a registered 
voter in my Assembly District, which contains 156,000 voters. The 
returned surveys showed overwhelming opposition to the proposed casino. 
The survey results indicated that 91% of my district opposes the 
development of a casino at Casino San Pablo. Even within the City of 
San Pablo-where the casino would be located- and where the city has 
been promised jobs and money, 64% of the returned surveys opposed the 
casino. Also, polls conducted by KPIX our local TV station that showed 
that 57% of the respondents oppose the casino.
    In addition, the Contra Costa County Board of Supervisors has 
passed a bipartisan resolution against Casino San Pablo and opposing 
all urban gambling and urban casinos. The Alameda County Board of 
Supervisors unanimously passed a resolution against Koi Nation urban 
casino proposal.
    Cities in the communities surrounding gambling casinos which will 
experience the negative impacts of increased traffic, crime, blight and 
gambling addiction have taken positions against proposed urban casinos. 
I have also received thousands of letters, emails and surveys that say 
that Casino San Pablo is a bad economic development strategy for our 
community and for our State.
    Recently the proponents of Casino San Pablo have said that they no 
longer intend to build a ``Las Vegas'' style casino, and that the 
casino now will not feature slot machines. The proponents have stated 
that they will operate only Class II gambling with electronic bingo 
machines.
    Electronic bingo machines are still slot machines. Push a button or 
pull the handle, watch the reels spin, and see what you won. There are 
flashing lights and sounds to stimulate the senses. Each pull costs 
money. Each pull is a gamble. For the player it is a slot machine 
experience with the same detrimental social and economic impacts as 
Class 3 slot machine gambling.
    These negative and detrimental impacts will include the same 
increases in traffic, crime, blight, unemployment, gambling addiction 
and adverse impacts on small business.
    The issue is not Class II gambling or Class III gambling, or 
electronic bingo machines or slot machines...the issue is location. The 
location of urban casinos has substantial negative impacts on the local 
economy.
    Economics of urban gambling can be made clear with the distinction 
between ``destination gambling'' and ``convenience gambling''? If a 
casino is a singular and major source of tourism and patrons travel to 
that casino to gamble and leave their money behind, that is destination 
gambling. Las Vegas is good example. People travel, stay, shop, go to 
entertainment venues at casinos in Las Vegas and go home, leaving their 
money in Las Vegas.
    Casino San Pablo is quite a different story. Casino San Pablo due 
to its location in a already built out urban area will be an example of 
``convenience gambling'' this kind of casino will not bring in revenue 
from outside of the Bay Area. The money spent at the casino will 
largely be from the people who live in work near the casino. In fact a 
recent study conducted by William Thompson at the University of Las 
Vegas Nevada concluded exactly that 85% of the money made by the Casino 
San Pablo would be from people in the Bay Area.
    If that is the case, the discretionary money that would have 
otherwise been spent at local retail stores, local restaurants, small 
merchants and local businesses will instead be spent at the casino. 
This gives the appearance of ``economic development'' but negatively 
impacts the local economy as experienced by local families and 
businesses. In fact the previously mentioned study shows that the 
direct economic losses experienced by the Bay Area from a class 3 
gambling casino in San Pablo will be $138 million a year. Simply put 
Casino San Pablo and the other casinos proposed in urban areas are a 
bad bet.
    To conclude, California is experiencing a proliferation of 
proposals for Indian gambling casinos that have little to do with self 
sufficiency on tribal lands. These ``off reservation'' casinos are, in 
reality, being aggressively supported and financed by out-of state 
casino developers and their lobbyists who clearly hope to build casinos 
in every urban area of the State. These Las Vegas style casinos were 
never intended by the voters of the State of California. The entrance 
of tribal casinos on non-ancestral land in densely built urban areas, 
such as San Pablo, would set a precedent for authorizing off 
reservation gambling casinos throughout California and every state 
where tribal gambling is permitted.
    Thank you again, Mr. Chairman, for holding this hearing. I look 
forward to seeing legislation to prevent the entrance of gambling 
casinos into California's urban areas.
                                 ______
                                 
    The Chairman. To begin with, I will start with you, 
Assemblywoman Hancock. In drafting this legislation and I know 
you are familiar with what we go through to do this, but one of 
the reasons why--and I understand what your concerns are with 
your District and where you can't really tell when you go from 
one city to the next and impacts are felt all over.
    One of the reasons why we limited it within the legislation 
to the City jurisdiction is currently if the City of San Pablo 
were to approve a 5,000 unit apartment building, that 
unquestionably would have impact on surrounding cities. Good, 
bad or indifferent, it would have some kind of impact.
    Yet under current law in California, we don't require that 
city to get approval of the surrounding cities in order to do 
it.
    I have concerns about the Federal Government becoming the 
Federal land use where we determine what goes where. In 
situations like this, I would fault on the side of what local 
law is, what the State law is, in allowing them the ability to 
do that.
    In this particular situation, if they negotiated an 
agreement with that particular city, they are responsible for 
that. As we had with previous panels of Supervisors, there has 
to be a nexus between what their impact is and what they 
actually have to pay for.
    That's kind of how I ended up with the draft that I did. I 
do understand what your concerns are in terms of the impact on 
the surrounding communities, but with tribes having their 
sovereignty, they have a special situation that exists in 
government-to-government negotiations.
    I don't want to do anything within this legislation that 
takes--that backs away from that and makes them do even more 
than what we would require somebody else with a similar 
development on a private site.
    Ms. Hancock. I think that the problem that you're citing is 
actually one of the reasons there is now a big push for more 
regional planning on land use. You're exactly right about 
shared impact and not shared responsibility.
    Again, not to single out San Pablo, but San Pablo is a city 
of about 30,000 people totally surrounded by the City of 
Richmond of 90,000 people, all of them low income, all of them 
in need. Contra Costa County provides social services to many, 
many communities. They would all be impacted by the need that 
would be created by the casinos.
    It probably goes back to go something I heard 
Representative Costa talk about. We also need State policies to 
begin to look at this.
    The Chairman. I don't think there is any question and Jim 
was the first one that actually brought that up to me several 
months ago. The more that we get into this, the more that I 
believe he is right, that we do need to have some kind of 
Statewide policy that at least makes clear what the policy is 
as the State puts it out there so that everybody knows what it 
is. Right now we don't have it.
    It's not just California. I am not aware of any State that 
has a clear policy. That is something we do have to deal with.
    Chairwoman Mejia, I read through your testimony and over 
the last several months I have had an opportunity to actually 
look at your particular tribe's situation and what has happened 
over the last 50 plus years to you.
    I do not support anything that takes away your sovereignty 
or takes away your opportunities. What has happened to you, I 
think, is a classic case of a number of California tribes. You 
have tried to do something about it, you have tried to move 
forward with it.
    I support your efforts for economic development. I believe 
that if you had known twenty years ago where you would be 
today, different decisions would have been made and we would 
not have been in the exact same situation that we're in.
    I think it's an unfortunate situation, but like it or not, 
the challenges that you have gone through over the past couple 
of years have highlighted this issue nationally and made it a 
bigger issue. When I had Members of Congress from Connecticut 
coming up to me and citing what has happened with your tribe as 
one of the reasons why we need to stop Indian gaming, that is 
one of the situations that we need to deal with.
    Can you describe or can you explain to the Committee why 
the decision was made to go to San Pablo to begin with? Can you 
explain that? Historically from Alexander Valley, how did we 
end up in San Pablo?
    Ms. Mejia. I met with the County Board of Supervisors in 
Sonoma County. They made it very clear that they didn't want us 
there. I asked for suggestions.
    They told us to look for maybe a newly formed city 
government that could use some money, that they didn't need any 
money because we offered to pay the mitigation issue. We 
offered to pay our fair share and they said they didn't need 
the money at the time.
    I don't know if they do now or not. I haven't had further 
discussions with them on it. So we did what they suggested. 
Actually, we just started going out because we didn't want to 
leap-frog around.
    We knew there was another tribe there. We found American 
Canyon, which was a new city government between Napa and 
Vallejo. We, in talking with the city staff people there, they 
led us to believe that they were actually very encouraging, 
that they would be open to this.
    Unfortunately, they didn't speak to their city 
representatives. There was a public hearing held where I was 
literally chased to my car at 9:30 at night by people. That 
made it very clear to me that we weren't going to be in 
American Canyon.
    So, we were leaving and one of the people on our team 
happened to drive by Golden Gate Field and thought, ``Well, 
maybe we should talk to them because the big issue was going in 
community that wanted you.''
    We talked together with the people at Golden Gate Field and 
they also owned Casino San Pablo. When we began discussions 
with them, we started telling them what we had in mind. They 
said, ``Well, gee, we have this card club over here that isn't 
doing very well.''
    The City really counts on the revenue from it and it has 
declined because of the Asian market financial impact. I'm as 
good at that as I am in politics, being one step back there. 
But that was the reason and we began discussions with them to 
participate in the card club because the voters in the 
community were open to gaming.
    We began those discussions. We were--then the next step 
would be to meet with the City of San Pablo. In talking with 
them, I am very proud to say that they have been very strong 
allies since 1998 when we signed this agreement. That's how we 
ended up in San Pablo. They sent us.
    The Chairman. Thank you.
    Mr. Costa.
    Mr. Costa. Thank you, Mr. Chairman. My question is to 
Chairwoman Mejia. I want to commend you on the very concise 
history that you indicated that your tribe has been through and 
as a result of that history the promises that were obviously 
broken as it related to your ability to participate in what is 
legal in California, which is Class III gaming.
    I was wondering, based upon your experience over the last 
15, 20 years, do you believe that the State of California has a 
clear understanding or a concise policy as it relates toward 
Class III gaming?
    Ms. Mejia. I was aware of no policy until the Governor's 
proclamation. I did sit through negotiations with the Governor 
of the State of California. It's my understanding at that time 
that his approach, at least it was with my tribe, and I don't 
want to speak for the Governor, seemed to be that it was on a 
case-by-case basis because each tribe is different. There are 
different circumstances.
    There were people that talked about Congressman Miller's 
legislation in the Indian Commons Act of 2000 authorizing this 
land to be mandated to be land that is taken into trust.
    There were comments that it was done by stealth legislation 
or whatever, even though it was actually put into the bill in 
October and passed in December. It was in there for anyone who 
had Internet access could have accessed that section.
    Having said that, in July of 2001 Senator Reed attempts to 
repeal the language. The tribe prevailed and it is stated in 
the Congressional Record on the Floor that this was done 
because of the unique circumstances of my tribe.
    So then another attempt last Fall by Senator Feinstein. 
It's like, we have been before Congress not once but twice, two 
more times. How many times do we go before Congress? When do my 
people get to say, ``We're OK''?
    Mr. Costa. I would submit to you that parts of that would 
be the result of a lack of nationwide policies on Indian 
gaming.
    Assembly Member Hancock, a variation on the question: Why 
do you think, having spent 20 some years in the Legislature. I 
can guess or I can surmise, not only this Governor but the 
previous Governor as well, have not come together to--as we 
understand the history over the last 15 years, as Class III 
Indian gaming has expanded, why there has not been an effort or 
an attempt to create a Statewide policy of the rules which are 
clearly understood?
    Ms. Hancock. I think that's a very good question. In all 
honestly, probably some things that haven't been tracked very 
closely until maybe the last four or five years when the 
phenomenon of off-reservation gambling has begun to be 
prevalent.
    Many tribes did go ahead and use the process laid out by 
the BIA and opened casinos on their traditional tribal lands.
    The next wave seems to be getting the backing of investors. 
I was very interested in Ms. Brown's information about Arizona.
    Mr. Costa. And by CSAC's testimony, there are 25 or less 
pending--including when you do the math, the 64 who have 
compacts. I guess that's a total of 43, notwithstanding the 25.
    Ms. Hancock. Yes. So I think it has become more than more 
clear that we may need Statewide policy. I know there is at 
least one Constitutional Amendment that is before the body that 
would have a five year moratorium while we assess the number of 
gambling casinos that we have now in California and what the 
future may be and where they might go if there were any more at 
all.
    I think frankly you have raised a very good point, that we 
need to have a Statewide policy.
    Mr. Costa. Thank you.
    Mr. Gohmert. As a follow-up on that, I'm wondering, if not 
only should there be a Statewide policy but perhaps a county 
policy. Contra Costa was giving me a little bit of background 
about your sacrifices.
    Jointly, I was reminded--I got to figuring out after 18 
months of a grueling campaign for Congress, probably the last 
person you ought to trust with making decisions for the Nation 
is anybody who is stupid enough to run for Congress.
    Nonetheless, it's an important issue. As I understand the 
legislation talks in terms of the local city or community where 
the lands are located, but I'm wondering if there should also 
be each state looking at this, not just a State policy, but 
should it empower the counties to have oversight or something 
like this, should the legislation incorporate the counties into 
this as well?
    Of course, you have the possibility of the county with the 
judgment of the local community for an overall county, but 
there are a number of issues at work.
    Do you have a feeling about that, whether it should be a 
county or a local community? Obviously, you have participated 
in communities you wouldn't necessarily want the counties 
participating. What are your thoughts?
    Ms. Hancock. In California, county government basically 
carries forward law enforcement duties, also social services. 
So, any increase in social services brought about by 
bankruptcies, suicide, increased domestic violence or any of 
those things, increases in crime, will be borne by the county, 
not necessarily by the city because cities don't traditionally 
do any social services at all.
    For that reason, the county has a real stake. The county 
also does roads and infrastructure. It seems to me they ought 
to be involved.
    Also, one of the reasons there was such strong opposition 
throughout the Bay Area to Casino San Pablo was that the I-80 
freeway is the lifeline, economic and social, for commuters to 
get from work to home. The thought of increased congestion 
would--the casino also directly--is now because it is still a 
card room right now--it is directly adjacent to the only public 
emergency room within 25 miles of the hospital.
    Really, I will. I think this is the kind of thing we ought 
to look at regionally because every city will feel the impact 
and we need to look at these things together. Now again, we're 
talking traditional tribal land, but when we're talking about 
investors, often out-of-state investors that seem to be 
predominantly located in Las Vegas, Arizona and Florida, doing 
what they call ``tribe shopping'' in addition to them 
``reservation shopping.''
    It becomes a very frantic and sad set of choices for 
everybody, including people who have enormous respect for 
tribal integrity and sovereignty. I think we do need a State 
policy and it does need to involve everyone who is impacted.
    We're not talking about traditional tribal lands and I do 
have to say that I have had many tribes come to me in great 
distress because they built a casino 75 miles off the main road 
of their traditional tribal land and they say if they thought 
they could get right next to a freeway in the metropolitan area 
they might have tried to do that.
    Mr. Gohmert. Chairwoman Mejia, you obviously have an 
intense sense of fairness and I admire that. With due regard to 
what has happened in the past, in formulating a new Federal 
law, what's your feeling about requiring to negotiate with--
outside the community with the counties.
    Ms. Mejia. Speaking for my tribe, I can tell you that when 
we negotiated the compact with the government of California, we 
negotiated and we agreed to have before anything was built an 
agreement, a mitigation agreement with the County of Contra 
Costa. Not just the County, not just the City, our municipal 
services agreement has been in place since 1998.
    We also agreed to mitigate with the County and CalTrans who 
also stepped up to the plate with a $25 million offer to 
rebuild the interchange at San Pablo Dam Road prior to getting 
it going and underway even before the mitigation agreement with 
CalTrans was in place because we understood the need for that.
    I think that my tribe has, to the criticism of other 
tribes, stepped up to the plate because we understood we were 
in an urban area and that we needed to step up to the plate and 
address those issues.
    Mr. Gohmert. I have just one question, referring to the San 
Pablo Dam Road, is ``dam'' the way it's used there, is that a 
noun or an adjective?
    Ms. Hancock. I do think that we need a little clarification 
there. The first compact that was put forth by the Governor for 
5,000 slot machines did not involve the negotiations for 
mitigation.
    It also had a clause that says that the State Director of 
Finance could at their sole discretion obviate any or all of 
the local mitigation which at that time were only for local 
governments. The second compact that was proposed for the 2500 
slot machines, which was about the size of a casino on the 
Vegas strip, did involve the county and was definitely a step 
forward and would be something that any policy in the future 
ought to consider.
    Mr. Gohmert. Thank you.
    The Chairman. I just want to ask one follow-up question of 
Chairman Mejia. Knowing what you have been through over the 
last several years, I don't know how familiar you are with the 
draft legislation but in there is the opportunity to do what we 
call ``Economic Opportunity Zones.''
    I don't know how familiar you are with those provisions in 
the draft, but would that have been an attractive option to you 
knowing now with the hindsight of everything that has happened, 
would that have been an option that your tribe would have 
pursued rather than ultimately what you did go through?
    Ms. Mejia. I understand the concept in the proposed draft. 
I'm not sure how it gets implemented, but I can tell you that 
being the Tribal Chair for the last ten years, for 275 poor 
people, people living in very bad conditions, I would have 
looked at all options.
    The Chairman. The way the draft is written, there would be 
two different zones. One would be on land that is currently in 
trust and that would be a negotiation between that particular 
tribe and others who would come into it. The other is the 
ability to go into land that is currently not in trust, but 
having the opportunity to bring that in trust for the tribes 
that would be located there.
    With a tribe such as yours that did not currently have land 
in trust, that would give you an opportunity to go somewhere 
with it. That was kind of the direction that we were trying to 
deal with in that particular case.
    That was not done with your situation particularly in mind. 
It was actually a couple others that are out that made me start 
thinking about that. It seems that in listening to your 
testimony and the more I learn about what you have gone 
through, that would have been an option for you.
    Did any of the Members have any other questions or comments 
they want to make? Mr. Costa?
    Mr. Costa. Thank you very much, Mr. Chairman. On my own 
time I would like to personally commend you for holding this 
hearing this afternoon on what I believe is an important piece 
of legislation, not only in California but throughout the 
country.
    You are to be commended for your work; this is not easy 
work and you will probably end up getting more grief than you 
will accolades. Having said that, for those of you as I look 
around the room and many of whom I have met over the years, 
you're probably, as you listen to my questioning, trying to 
figure out, ``Well, what's Costa really up to this time?''
    Let me tell you and I will try to be as clear as I can. For 
one, I'm up to working with the Chairman of this Committee on 
what I hope will be thoughtful, common sense legislation that I 
think is necessary.
    I commit to doing that as best I can. What I'm also up to 
is trying to deal with the issues that I think are important to 
the long-term impacts of Class III gaming in California.
    Obviously, through my questioning I think all of you sense 
that I have a sense of frustration on how this is happening on 
an ad hoc basis, on a case-by-case basis where every deal has 
become kind of a deal based upon the powers that be that were 
involved rather than what the circumstances were with each 
Indian tribe.
    I think we need to be fair in all of our application in the 
107 sovereign nations in California that are recognized. I 
believe it is 107; correct me if I'm wrong. I know there are 
others that are pending that would like to be recognized. I 
think that's a difference in that; although, we probably should 
consider that in legislation, tribes that have not been 
recognized by the BIA, the Bureau of Indian Affairs that are 
pending recognition.
    In terms of my application of fairness, I would be 
interested in all of your ideas, not just the 64 current 
sovereign nations that have compacts, but also the 25 plus and 
the number on top of that, that are seeking compacts. It would 
be my hope--I don't know if we'll be successful, I know I'm 
kind of still in the learning process in the Congress.
    As we all know, legislation is not a precise scientific 
process. It's kind of an art form. In Sacramento and in 
Washington, D.C., as we apply our art, I would be interested in 
listening to all of your comments and your ideas on how we can 
try to put forth what I hope will be a fair and clear, logical 
process on those 43 tribes, I believe, that currently do not 
have compacts that are seeking compacts.
    Realizing that the 64 that currently have them today, I 
believe under State and Federal statutes are modified compacts. 
I don't believe that there's anything that we can deal with 
whether we like the compacts or not. What we finally say is I 
do support Indian gaming in California. I have consistently 
supported it.
    As I told you, my mother would not have it any other way 
because she likes to go to a couple facilities nearby as she 
reaches her 90th birthday this year. I do want to be fair and I 
think we need to believe that, whether this process involves 
both local and State government, it ought to basically require 
some guidelines to determine what the State policies should be 
in California.
    I think we all have ideas about how traditional tribes that 
have the reservations and the landless tribes.
    I think that needs to be hopefully addressed in the 
legislation. That's kind of what I'm up to in terms of trying 
to work as best I can with the Chairman, with the Members of 
this Committee to see if we can produce thoughtful, common 
sense legislation that deals with status for California and 
hopefully better than we have been able to do so far.
    Let's look at the long-term issues because I think that's 
where we're going. There has been a tremendous lack of focus 
over the last 15 years. Thank you very much.
    Mr. Gohmert. Just to say thank you and thank all of you. 
It's when people have been too apathetic that we have gotten 
our worst laws so I appreciate your interest and your input.
    The Chairman. I want to just, in closing, say that I 
appreciate Mr. Costa making the effort to be here and 
participate in this hearing. Obviously, this is an issue that 
is not only important to his District and California but to the 
entire country and I appreciate the input that he has had as a 
Member of the Committee.
    Mr. Gohmert made the effort to come out from Texas to be 
part of this hearing. This is an issue that the Committee is 
dealing with that may not be quite the issue in Texas as it is 
in some other states and I appreciate him making the effort be 
here to educate himself on what is a major issue.
    The only comment I would say to Mr. Costa in terms of the 
recognition process, that is another bill that is just as 
controversial as this one. My effort as Chairman was to take a 
number of these issues that have been before Congress and try 
to settle them. None of them are easy.
    Whether we're talking about the recognition process or off-
reservation gaming and the impact that has had, they are very 
complicated issues that when you deal with every tribe from 
tribe to tribe it's a different issue, different circumstances.
    Because of that, instead of introducing legislation, we 
introduced a draft bill. We put everything that we could think 
of in that draft bill and put it out there and many of the 
people in this room have had comments on that draft 
legislation, good and bad about what works, what doesn't work, 
why it won't work in your specific situation.
    That was the process that I decided to through instead of 
just telling you, ``This is the way it's going to be,'' I put 
out a draft and said, ``OK, tell me what's wrong with it or 
what's right with it.'' Over the last several months we have 
gotten a lot of comments on it.
    When we ultimately get to the point of introducing 
legislation it will look different than the draft because we 
have taken a lot of comments that have come in and tried to 
respond to that and we have tried to make it so that it's 
something that when it hits in the implementation stage it's 
something that works. That's what we're trying to do with that.
    I appreciate the panels for their testimony, all of the 
witnesses today for your testimony. It will make this better 
legislation by the time we get to the point of introducing the 
bill. So, I thank you for that.
    For those of you who had wanted the opportunity to testify 
or have your comments heard as part of this hearing, I will 
leave the hearing record open. Anybody who has comments that 
they would like to submit, submit them to the Resources 
Committee.
    They will be included as part of the record and part of 
this deliberative process that we are going through to come up 
with legislation.
    I want to thank all of you for being here. Actually, for a 
crowded room and the number of emotions that are here, you did 
pretty good. I appreciate that.
    Mr. Costa.
    Mr. Costa. Mr. Chairman, as a former Judge, Mr. Gohmert, I 
thought, would be interested in the history of this room. It 
was originally constructed to seat the California Supreme 
Court. That's part of the reason it's such a beautiful, 
historic room.
    The Supreme Court had a lot of political leverage in the 
late 1880's and '90s. They thought the climate was not so much 
to their liking in Sacramento; that it was far better in San 
Francisco.
    This part of the State had a lot of periodic floods in 
those days before the dams and reservoirs. Getting the 
legislation changed to where they were assigned to the County 
and City of San Francisco, they were required in part to 
convene once a year in Sacramento to show the fact that they 
were a part of the State of California.
    They have maintained that tradition for over 100 years. 
They meet in this room one day a year to reaffirm that they do 
belong to California. It's a beautiful room to have a hearing.
    The Chairman. In deference to my colleagues, I did not 
spend a heck of a lot of time in the Capitol in Sacramento 
having never served here and I stay out of courtrooms whenever 
possible. I appreciate it, everybody, if there is no further 
business before the Committee, this hearing is adjourned.
    [Whereupon, at 2:35 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
